<html>
<title> - AMERICA'S HEROIN CRISIS, COLOMBIAN HEROIN, AND HOW WE CAN IMPROVE PLAN COLOMBIA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




AMERICA'S HEROIN CRISIS, COLOMBIAN HEROIN, AND HOW WE CAN IMPROVE PLAN 
                                COLOMBIA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2002

                               __________

                           Serial No. 107-152

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                -------
83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2002................................     1
Statement of:
    Crane, Barry, Deputy Director for Supply Reduction, Office on 
      National Drug Control Policy; Paul Simons, Acting Assistant 
      Secretary of State for International Narcotics and Law 
      Enforcement; and Rogelio Guevara, Chief of Operations, Drug 
      Enforcement Administration.................................    86
    Isacson, Adam, senior associate, Center for International 
      Policy.....................................................   138
    Jimenez, Felix J., retired Special Agent in Charge, DEA, New 
      York Field Division, Special Agent in Charge, 
      Transportation Security Administration, New York Field 
      Division; detective Tony Marcocci, Westmoreland County, PA, 
      District Attorney's Office; detective sergeant Scott 
      Pelletier, Portland, ME, Police Department, head, Portland 
      Police Department-Maine Drug Enforcement Administration 
      Heroin Task Force; Tom Carr, director, Baltimore-Washington 
      High Intensity Drug Trafficking Area [HIDTA]; and Mr. X, 
      undercover narcotics detective, Howard County, MD, Police 
      Department.................................................    34
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................   154
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     5
    Carr, Tom, director, Baltimore-Washington High Intensity Drug 
      Trafficking Area [HIDTA], prepared statement of............    61
    Crane, Barry, Deputy Director for Supply Reduction, Office on 
      National Drug Control Policy, prepared statement of........    87
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   157
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York:
        Letter dated October 1, 2002.............................    13
        Miami Herald series......................................    19
        Prepared statement of....................................    25
    Guevara, Rogelio, Chief of Operations, Drug Enforcement 
      Administration, prepared statement of......................   114
    Isacson, Adam, senior associate, Center for International 
      Policy, prepared statement of..............................   141
    Jimenez, Felix J., retired Special Agent in Charge, DEA, New 
      York Field Division, Special Agent in Charge, 
      Transportation Security Administration, New York Field 
      Division, prepared statement of............................    36
    Marcocci, detective Tony, Westmoreland County, PA, District 
      Attorney's Office, prepared statement of...................    54
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, article dated October 29, 2002...........   152
    Pelletier, detective sergeant Scott, Portland, ME, Police 
      Department, head, Portland Police Department-Maine Drug 
      Enforcement Administration Heroin Task Force, prepared 
      statement of...............................................    45
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois:
        Doug Castle articles.....................................    73
        Prepared statement of....................................    10
    Simons, Paul, Acting Assistant Secretary of State for 
      International Narcotics and Law Enforcement, prepared 
      statement of...............................................   104

 
AMERICA'S HEROIN CRISIS, COLOMBIAN HEROIN, AND HOW WE CAN IMPROVE PLAN 
                                COLOMBIA

                              ----------                              


                      THURSDAY, DECEMBER 12, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 a.m., in room 
2154, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Present: Representatives Burton, Gilman, Mica, Norton, 
Tierney, and Schakowsky.
    Staff present: Kevin Binger, staff director; David A. Kass, 
deputy chief counsel; Marc Chretien, senior counsel; Kevin Long 
and Gil Macklin, professional staff members; Blain Rethmeier, 
communications director; Allyson Blandford, assistant to chief 
counsel; Robert A. Briggs, chief clerk; Robin Butler, office 
manager; Joshua E. Gillespie, deputy chief clerk; Michael 
Layman, legislative assistant; Nicholis Mutton, deputy 
communications director; Leneal Scott, computer systems 
manager; Corinne Zaccagnini, systems administrator; T.J. 
Lightle, systems administrator assistant; Tony Haywood, 
minority counsel; Ellen Rayner, minority chief clerk; and Jean 
Gosa and Earley Green, minority assistant clerks.
    Also present: Ambassador Anne Patterson.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order. I ask 
unanimous consent that all Members' and witnesses' written and 
opening statements be included in the record, and without 
objection, so ordered. I ask unanimous consent that all written 
questions submitted to witnesses and answers provided by 
witnesses after the conclusion of this hearing be included in 
the record, and without objection, so ordered. And I ask 
unanimous consent that all articles, exhibits and extraneous or 
tabular material referred to be included in the record, and 
without objection, so ordered.
    First of all, I would like to congratulate Mr. Cummings, 
who's not here today. He's been very deeply involved in the 
drug issues since he's been in Congress and he's one of those 
people that really, really has been concerned about problems of 
more heroin and cocaine and other drugs coming into this 
country. Mr. Cummings has told this committee a number of times 
about the heroin epidemic that has besieged his congressional 
district. This week he was elected to be the new chairman of 
the Black Caucus and I wish he was here so I could congratulate 
him. It's great to see some of our Members moving up the 
ladder, as others of us are moving down the ladder.
    I'd also like to thank my vice chairman, Mr. Barr, and 
Chairman Gilman, who proposed holding this hearing. 
Unfortunately, Mr. Barr got stuck in Monaco. That's a tough 
place to be stuck, don't you think? And this is an issue that 
they care a lot about. They've done excellent work and we're 
going to miss them in the next Congress.
    I also want to thank my colleague, Mr. Mica, who's been 
very active on this issue for some time, and Ms. Schakowsky. 
She's interested in this as well as a number of things we've 
been working on for some time. This is an issue that we all 
care a lot about and hopefully there'll be some resolution of 
some of these problems.
    We're holding today's hearing to explore the damages that 
Colombian heroin is wreaking on our society. Statistics show 
more than 20,000 Americans died last year from drugs and drug-
related violence. Other estimates go as high as 50,000. And 
when we talk about our prisons and having to build new prisons 
all the time to take care of criminals, we find that over 70 
percent of all the people who are incarcerated are incarcerated 
in one way or another in some nefarious activity that's been 
related to drugs.
    And so the drug problem here reaches all across the 
spectrum and it costs this country billions and billions and 
billions of dollars. Conservatively, the 20,000 Americans that 
died last year, that's about seven times as many as died in the 
tragedy on September 11th. Nationally, drug-related deaths 
surpassed homicides for the first time in 1998 and that trend 
has continued.
    According to a graph I'd like to show right now from ONDCP, 
heroin is the most addictive substance after nicotine, and 
that's pretty startling when you look at those figures. There 
are a number of different ways to attack this problem and 
focusing too heavily on one to the detriment of the other will 
only result in overall failure. We spent most of the Clinton 
administration focusing too heavily on treatment and too little 
on eradication and interdiction, and the result has been a 
dramatic increase in drug production in Colombia. Law 
enforcement has said it is nearly impossible to stop drugs 
after they enter the stream of commerce and repeatedly have 
told us the best place to stop them is in the poppy fields or 
the coca labs in Colombia before they begin their voyage to the 
United States.
    Our borders are extremely porous, as everybody knows. We've 
got almost a 2000-mile border between us and Mexico. We've got 
the Gulf of Mexico, the East and West Coasts and the huge 
border in Canada, and so the problem is very, very bad.
    The message our first panel of witnesses is going to 
deliver will come as no surprise to those of us who followed 
this onslaught for the past 6 years. We predicted that it was 
going to happen and we acted by providing the right equipment 
and guidance to the State Department in an effort to stop the 
flow of heroin before it reached the United States.
    Many of us, including Chairman Gilman, Speaker Hastert, Mr. 
Mica, Mr. Barr and others, began pressing the previous 
administration to deliver mission specific equipment. The 
mission of eradicating opium poppy was critically important. We 
pressed a reluctant administration to deliver much needed 
equipment and helicopters to our allies in General Serrano's 
Colombian National Police starting in 1996.
    It was not easy. It took constant pressure to pry each and 
every helicopter out of the Clinton administration. And I don't 
want to knock them too much because we've done enough of that 
in the past. But the problem is we needed equipment down there 
and the equipment wasn't getting there as rapidly as it should 
have and when it did get there many times it was outdated, 
outmoded and didn't have the proper protections. Even when 
congressionally directed assistance arrived, it required 
constant oversight by this committee and the International 
Relations Committee to attempt to get the U.S. Embassy to use 
and maintain the aid as Congress intended. At nearly every turn 
the Embassy and the State Department chose to ignore 
congressional direction.
    In 2000, we saw initial success with the heroin strategy. 
Our allies in the Colombian National Police eradicated 9,200 
hectares of opium poppy plants in Colombia's high Andes 
Mountains. This put a serious dent into the supply of heroin 
coming into the United States. It was then that the State 
Department chose to stop opium eradication to, as Ambassador 
Patterson put it, to take advantage of a historic opportunity 
to eradicate coca. And the only problem is Colombia's cocaine 
is now increasingly headed in another direction, to Europe. And 
the opium poppy used to make more deadly Colombian heroin is 
almost exclusively headed for the United States of America and 
our East Coast. We're facing a tidal wave of the purest, most 
deadly and most addictive heroin in the world. Under those 
circumstances, you would think that eradicating heroin would be 
a top priority. We need to know why this decision to cut back 
poppy eradication was made, and that's one of the reasons we're 
having this hearing today.
    This decision to focus almost solely on coca eradication at 
the expense of opium eradication has clearly had unforeseen 
consequences. The result has been an increase in Colombian 
heroin available in the United States, an increase in hospital 
administrations for overdoses and an increase in overdose 
deaths in nearly every big city and small town east of the 
Mississippi.
    Now, I understand that the State Department is now 
increasing the spraying of poppy fields, and that's good news. 
In my view it should have never been decreased. The spraying 
that's been done in the last 2 years has been a fraction of 
what was accomplished in 2000, and I don't understand why it 
was decreased and why that happened. What I hope to hear today 
from the State Department and the Drug Czar's office is that 
there is a strategy in place for a concerted effort to 
eradicate opium poppies in Colombia and that this is going to 
be a top priority.
    I want to thank all of our witnesses for being here today. 
I was hoping that we would be able to have Ambassador Patterson 
to testify, but we weren't able to work that out. However, as I 
understand it, she will be here, or she is here and if we have 
to confer, if one of the witnesses has to confer with her they 
can do that. We do have Assistant Secretary Simons here to 
testify and Ambassador Patterson is here to advise him. And I 
was also hoping that the Drug Czar, Mr. Walters, could be here 
but his schedule wouldn't allow it. And I'm sure that they're 
not avoiding us, because the war against terrorism and the 
attention the administration is paying to that right now 
requires a lot of the top executives in the administration to 
be elsewhere. But nevertheless I appreciate those who are here 
for being here, and I want to thank Deputy Director Crane for 
being here in the place of the Drug Czar. I also want to thank 
Mr. Guevara from the DEA and the four dedicated law enforcement 
officers we have on our first panel. We have one law 
enforcement officer, as you know, who's encased in this 
cubicle, and the reason for that is because he's doing very 
important work and there may be some danger to him if he were 
to testify in public.
    And with that, Ms. Schakowsky, do you have an opening 
statement you'd like to make?
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.001
    
    [GRAPHIC] [TIFF OMITTED] T4606.002
    
    [GRAPHIC] [TIFF OMITTED] T4606.003
    
    Ms. Schakowsky. Yes, I do. Thank you, Mr. Chairman. I want 
to tell you how much I appreciate your making time in the last 
month of your tenure as head of this committee to focus 
attention on the growing heroin crisis in America as well as 
our country's severely flawed policy in Colombia. I understand 
this is the third hearing that you've had in this last week of 
your tenure and I want to just tell you what a privilege it has 
been to serve with you as chairman and I want to thank you for 
your leadership on this and so many issues that affect 
Americans.
    The heroin crisis in America does need urgent attention. 
This problem is unlike other substance abuse cases in that 
heroin is more addictive, as you pointed out, Mr. Chairman, 
more lethal in small doses and at times easier to obtain by 
teenagers than any other form of intoxicant.
    I welcome our law enforcement witnesses and look forward to 
hearing their views on how we can best address the subject. 
That being said, however, as will be clearly evident during 
today's hearing, there is not agreement among Members on how 
the heroin problem in America can be best addressed. I strongly 
oppose much of the policies put into place by Plan Colombia and 
the Andean Region Initiative because they have in my view been 
too heavily weighted toward supply side reduction, a strategy 
that has not worked to reduce substance abuse in the United 
States, coca or heroin. The policy so far has largely 
disregarded concerns about several important issues, including 
human rights abuses, committed by corrupt forces within the 
Colombian military, the plight of Colombia's internally 
displaced population, and alternative development, human and 
environmental health concerns related to the campaign of aerial 
fumigation of coca, as I said a campaign that has failed to 
achieve its goals, corruption within Colombia, mismanagement of 
U.S. taxpayer dollars and a failure by our Embassy and State 
Department officials to enforce U.S. laws and a failure of the 
Colombian government, its Attorney General in particular, to 
pursue cases against known human rights offenders.
    New concerns have been raised by many human rights 
advocates and Members of Congress about the changing nature of 
our mission in Colombia. Congress this year authorized funds 
previously appropriated for counternarcotics operations in 
Colombia to be used for counterinsurgency. The administration 
has a plan to provide to Colombia and to Occidental Petroleum, 
for starters, over $100 million from U.S. taxpayers to protect 
a portion of the Cana-Limon oil pipeline. I oppose our mission 
shift in Colombia and I oppose the administration's pipeline 
protection program. This mission shift will put U.S. personnel 
directly into Colombia's decades old civil war. The pipeline 
program is a giveaway to an incredibly wealthy corporation from 
the U.S. Government and we have no guarantee of a return on our 
investment, not even a deal for a discount on Occidental oil.
    I want to move on and discuss what I believe to be the best 
way we can improve our Colombia policy, and that is to uphold 
U.S. principles and laws, and I want to use an example to 
underscore the failure of our officials posted in Colombia to 
demonstrate leadership on this subject.
    On December 13, 1998, in a Colombian village called Santo 
Domingo, 17 civilians, including six children, were killed when 
Colombian military helicopters provided to Colombia by the 
United States dropped what the FBI later certified was U.S. 
made bombs on the community. This appeared to many of us, 
including Senator Leahy, to be a clear violation of the Leahy 
law, which requires that U.S. aid be cutoff to Colombian 
military units, ``credibly alleged to have committed gross 
violations of human rights,'' until the perpetrators are 
brought to justice.
    While some actions were taken, investigations were opened 
and closed and reopened, the United States failed to show a 
commitment to the law over the course of this case. Meanwhile, 
troubling information came out in the testimony of witnesses 
and the press. Colombian personnel directly involved in the 
operation over Santo Domingo have testified that they were 
given the coordinates to drop the bombs on Santo Domingo by a 
U.S. contractor called Air Scan. Air Scan was under contract to 
provide security to Occidental oil.
    Over 2 years after the bombing and almost 2 years ago I met 
with U.S. Ambassador to Colombia Ann Patterson. I raised the 
case of Santo Domingo. Ambassador Patterson urged me to be 
patient. She acknowledged that she was on, ``thin ice on this 
one,'' and that very soon she hoped there would be major 
progress on this case. That was in February 2001. Ambassador 
Patterson waited 1 year and 9 months from then and almost 4 
years from the time of the attack on Santo Domingo to recommend 
to the State Department that the Leahy law be invoked and aid 
to the Colombian Air Force unit implicated in the case be 
suspended. That is her recommendation. I don't know yet if that 
has been followed through on. Granted, even if she wanted to do 
so sooner, she may have been prevented from taking action 
because of the Bush administration's disinterest in this case.
    I challenge any Member and any representative of the State 
Department to say that this is an example of leadership and a 
commitment to human rights and upholding U.S. laws. We are 
rewarding an oil company that hired a contractor to work with a 
corrupt military by providing that same company with over $100 
million in security aid and, according to the Secretary of 
State, we are rewarding the military involved in this case and 
countless other massacres of innocent civilians with additional 
U.S. aid.
    This case is an embarrassing and shameful blemish on the 
United States. To me it symbolizes all that is wrong with our 
policy and our priorities in Colombia. I think it's too bad 
that Ambassador Patterson, who I do have a great deal of 
respect for, but I'm sorry that she's not here to answer 
questions on this important case.
    Mr. Chairman, these are just some of the important issues 
today's hearing should be considering. I intend to use my time 
for questions on these issues, and I welcome our witnesses, 
look forward to their testimony, and appreciate your indulgence 
in allowing me to make this lengthy opening statement. Thank 
you.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]

[GRAPHIC] [TIFF OMITTED] T4606.004

[GRAPHIC] [TIFF OMITTED] T4606.005

    Mr. Burton. Thank you. Although I agree with a great deal 
of your statement and disagree with some of it, I think since 
you're so conversant with the issue it's worth it to listen to 
what you have to say.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank you 
for arranging this important hearing today. I think it's very 
timely as we discuss where we stand on Colombian heroin and our 
U.S. aid problems which our CODEL covered on a recent visit to 
that beleaguered nation. Colombia's capital is only 3 hours 
from Miami, and what happens there, of course, impacts all of 
us.
    Mr. Chairman, I ask unanimous consent that my October 1st 
letter to ONDCP Director John Walters on the heroin crisis in 
America be included in the record----
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.006
    
    [GRAPHIC] [TIFF OMITTED] T4606.007
    
    [GRAPHIC] [TIFF OMITTED] T4606.008
    
    [GRAPHIC] [TIFF OMITTED] T4606.009
    
    Mr. Gilman [continuing]. Which notes failures of his 
office, the INL Bureau at the State Department and the U.S. 
Embassy in Bogota in tackling the Colombian heroin problem 
before it gets out of control.
    Today we'll be learning firsthand from our local police, 
and we welcome them and we thank them for being here, the grave 
dimension of the Colombian crisis. There's going to have to be 
accountability for this mess at the Federal level. Regrettably 
our government has failed to use the equipment that Congress 
previously provided to eliminate the Colombian opium long 
before we have the heroin that it creates flowing into our 
Nation where it's difficult and nearly impossible to interdict. 
ONDCP states it's about 10 percent at best.
    Permit me to summarize our findings from our recent CODEL 
visit to Colombia. The findings offer an excellent and a 
practical solution to the Colombian heroin crisis now before 
our communities and our young people here at home are 
destroyed, notwithstanding that ONDCP and INL figures downplay 
this threat.
    With regard to our findings, we found that the major 
illicit drug crops of concern to our Nation in Colombia consist 
of coca and cocaine production and opium and heroin production. 
The Colombian coca crop is the most extensive, employing about 
130,000 hectares, more or less. And the annual opium crop is 
much smaller, only 5- to 6,000 hectares at most. And yet today, 
that limited Colombian opium crop is supplying nearly 60 
percent of the heroin in our Nation, replacing Asian heroin. 
It's the cheapest, most addictive, and deadliest that we've 
seen. It's resulting in numerous heroin-related deaths as it 
spreads across our Nation. It's already or soon will be the 
major illicit drug in many States across the Nation and has the 
highest risk of all drugs because of its dependence.
    Newest trafficking trends show more and more Colombian 
cocaine is headed for Europe while all of the deadly Colombian 
heroin is coming here, creating havoc in our Nation. The media 
recently reported that the son of a major Cali cocaine cartel 
kingpin was just arrested for possession, not of cocaine but 
for substantial amounts of Colombian heroin.
    With regard to the coca crop, that crop has to be 
eradicated throughout the year since it is produced four times 
per annum. Opium, on the other hand, produces only two small 
crops each year, which is up in the high Andes, primarily, 
Huila, Tolima, Cauca, departments in the south and also the 
Cesar area in the north. When opium is eradicated in the 
mountains, the loss to the drug traffickers is much greater 
than with coca since they've expended extensive funds and 
energy in climbing the mountains to plant, preserving their 
expensive, profitable but small opium crop. A kilo of heroin in 
the United States on our streets is worth nearly six times more 
than a kilo of cocaine on our streets.
    The past experience of the anti-drug Colombian National 
Police that have done such an outstanding job demonstrates that 
you can simultaneously eradicate both coca and opium and still 
produce good results on both of those fronts without having to 
sacrifice taking down one crop for another as we regrettably 
did during the past 2 years. Since coca is produced year round 
in the bigger quantities, it's necessary to stay at it all year 
to sustain eradication in order to get a net overall coca crop 
reduction.
    However, the same is not true for opium. According to the 
CMP experts, opium, like coca, is only a twice a year crop, 
grown in small amounts in the mountainous regions. It can and 
should be sprayed just before harvest time. In 48 hours the 
poppy flower wilts, unlike the coca leaf which takes much 
longer to eliminate. The opium harvest time eradication 
maximizes the impact and loss of revenue for the drug 
traffickers, while in the interim it would be possible to 
eradicate the bigger coca crop all year round.
    You know, we should be able, Mr. Chairman, to walk and chew 
gum at the same time. This CMP's insightful experience is based 
on their enforcement theory and explains why in both 1999 and 
in the year 2000 there was good eradication results of 80 to 90 
percent of the opium crop was eliminated while continued 
strides were also made against the coca crop all at the same 
time. If we only had sustained the opium eradication effort 
over the past 2 years, combined with DEA's excellent efforts 
with the CMP going after the Colombian heroin dealers and 
infrastructure, we would not be faced with the Colombian heroin 
crisis which we're facing today.
    So Mr. Chairman, I ask unanimous consent that the Miami 
Herald series in early November of this year on the Colombian 
heroin crisis here at home be included in the record at this 
point in the record. It deserves our attention.
    Mr. Burton. Thank you, Mr. Gilman. Without objection, so 
ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.010
    
    [GRAPHIC] [TIFF OMITTED] T4606.011
    
    [GRAPHIC] [TIFF OMITTED] T4606.012
    
    [GRAPHIC] [TIFF OMITTED] T4606.013
    
    Mr. Gilman. Overall, what the CODEL discovered on our 
recent visit is the lack of any political will, the lack of 
leadership, the lack of strategic thinking by the Drug Czar and 
the lack of long-range planning by the State Department and by 
our Embassy leadership in Bogota. All of them sorely need to 
sustain these past efforts to eliminate opium, to thwart--to be 
able to thwart the heroin crisis. If sustained, along with our 
excellent DEA efforts, we could have nearly eliminated 
Colombian opium and avoided the heroin crisis we're now facing 
in our Nation that originates in nearby Colombia.
    Without that small opium crop there'd be no Colombian 
heroin of course. It's that simple and very easy to comprehend. 
But regrettably our Federal Government has failed to comprehend 
that. The CMP Deputy Director says this job of eliminating 
Colombia opium can still be done in just 3 months, Mr. 
Chairman, and that's what this important hearing's all about. 
We need some credible explanations why it hasn't been done and 
why there should be no excuses of why it can't be done.
    Coca eradication takes years and the net benefits are far 
less beneficial than with opium eradication in the high Andes. 
Since the Colombian anti-drug police now have the Blackhawks 
which we--this committee has helped them obtain and the spray 
planes to do the job, our executive branch should now lead, 
should be held accountable for the carnage which we're going to 
be hearing about from our local police.
    The opium elimination results fell off in the year 2001 by 
more than 70 percent. Let's find out why. Let's ascertain who 
is responsible and then find out how we can reverse that figure 
and hold people accountable.
    With regards to the excuse that we hear about with weather, 
bad weather conditions, we often heard from the Embassy and 
ONDCP those excuses. The police say this is nothing new in 
Colombia, especially in the opium mountainous regions. We 
should wait, wait it out, as did the CMP, and go back a day or 
a week later when the weather clears in the high mountains and 
obtain the kind of eradication results we need. The CNP's past 
experience, which we learned of in our visit, fully answers the 
erroneous U.S. Government and Embassy Bogota excuses, which 
included that there's often bad weather and that they can't 
find the opium and if they do eradicate it it's just replanted. 
I think all of those excuses, Mr. Chairman, ring hollow.
    In summary, what's needed now is strong leadership of 
political will at the top so the Colombian opium and in turn 
Colombian heroin now destroying our youth here in our country 
can become a thing of the past.
    Mr. Chairman, we thank you again for conducting these 
hearings. I'm certain these things can and must change and when 
the American people know what can and must be done and demand 
that their Federal Government do the job of protecting them 
from illicit drugs from abroad, and in this case Colombian 
heroin, it's going to happen. Our local police departments, 
from whom we're
about to hear from, can't do this eradication job at the source 
in Colombia. But we and our Federal Government can and should 
do the job.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]

[GRAPHIC] [TIFF OMITTED] T4606.014

[GRAPHIC] [TIFF OMITTED] T4606.015

[GRAPHIC] [TIFF OMITTED] T4606.016

[GRAPHIC] [TIFF OMITTED] T4606.017

[GRAPHIC] [TIFF OMITTED] T4606.018

    Mr. Burton. Thank you, Mr. Gilman.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I thank you first of 
all for holding these hearings and for the great work that 
you've done as committee Chair, particularly over the last year 
where we've really addressed a number of issues that were 
important to the American people, and I look forward to your 
continued efforts in that regard with whatever subcommittee 
chairmanship you get after we reorganize.
    I want to in large part associate my remarks with those of 
Ms. Schakowsky, who I think went into greater length than I am 
going to go into, but certainly was on point with much of what 
she had to say.
    The Andean Country Initiative and the Plan Colombia are not 
the best of plans that we could put forth to do what we need to 
do in this country in terms of eliminating the drugs that are 
coming into the United States. Spraying, while, Mr. Chairman, 
you may think it's good news that they're spraying, many people 
obviously don't think it such good news when it turns out they 
have a huge internal displacement causing probably more 
internal refugees than anywhere else in the world, and we need 
to go at this in a little bit of a wiser situation. We have 
alternative development issues that need to be addressed. If 
people are going to have their crops eradicated and be moved 
on, then there has to be something for them to go to. We should 
be concentrating more on building a civil society in Colombia. 
They need a much strengthened judiciary, a much improved police 
organization, a much improved military. We also need to know 
that their military right now is not of the nature that it 
should be.
    We're sending down a substantial amount of money from the 
United States and now sending our men and women there only to 
find out that if you have enough wealth and if you have enough 
education in Colombia, then you need not serve in the Colombian 
military forces, and I think that's something that has to be 
addressed by President Uribe before we keep sending our money 
down there.
    The fact is that every time we succeed or think we're 
succeeding in eradicating either poppy or cocaine, coca, it's 
just moving. We did a relatively good job we thought in Peru 
and in Bolivia and it moved to Colombia. And we're now making 
efforts in Colombia and the fears are that it's moving back to 
Peru, back to Bolivia and maybe into Ecuador. So that we have 
to do much more and we have to come at this from more than one 
direction, and I think that we can do that.
    I'm always dismayed that we really don't sink our teeth 
into issues that would really make a difference, as difficult 
as they may be for people in political life up here. First and 
foremost on that list I put money laundering. If we really 
concentrated on going after the money, I think we'd make the 
jobs of the witnesses in front of us a lot easier on that. 
Let's go where it is.
    It's the toughest thing politically perhaps to be done in 
this country, Colombia and the other countries involved, but 
let's go at the source. Let's go at the arms transfers and 
sales. The number of arms shipments going into Colombia and 
other countries that are manufacturing these drugs is 
outrageous. Yet the United States is the singular most 
important country that withdrew from the small arms discussions 
that were going on in the international community, and that's a 
disgrace.
    Let's talk about interrupting the precursor chemicals that 
go into the production and manufacture of these drugs. You 
know, these people are making money. This is a business. And we 
sit here looking like the only thing we can do is eradicate 
crops of poor peasants, making them internal refugees running 
around their country looking for food, looking for a place to 
settle down, looking for a way to be safe. And the only people 
that can go after money laundering, arms transfers and sales, 
interruption of precursor chemicals really is the United States 
taking the leadership. And where are we on that, Mr. Chairman? 
Just where is the courage of this body of Congress? And where 
is the courage of other people in going where it really makes a 
difference?
    We're just going to keep pushing this ball around the park 
from Peru to Colombia to Ecuador and back if we don't start 
going at the source of the root of that issue. And we can do a 
lot more in terms of having treatment on demand in this 
country. As much as supply is, and let's not fool ourselves, 
demand is an even larger issue. The price for these drugs has 
not gone down one iota in all the time that we've spent trying 
to address this issue. No matter how much we move it from Peru 
to Bolivia to Colombia to Ecuador or any place else, go 
overseas, the fact of the matter is the price on the streets of 
this country remains the same.
    So we're not having the impact that we think we're doing. 
We're spending huge amounts of money. We're spending a lot of 
money on military products. I'm sure somebody here is making a 
buck on that. We're not going after where the real issue is and 
we're displacing hundreds of thousands of people and not 
bringing them any more safety or human rights or protection in 
their country at all.
    Mr. Chairman, we've got a formula to move on this, and some 
of it is what we've been doing now, but unfortunately not an 
awful lot. We need to be working at the infrastructure, the 
civil infrastructure in Colombia. We need to be making sure 
President Uribe has his people joining their military, buffing 
up their police department so that it actually is an effective 
police department, doing something about the paramilitaries as 
well as the guerillas so that people have confidence in their 
own law enforcement and their military mechanisms, and then 
making sure that we do the things that could make the largest 
difference of all, taking on the money launderers, the arms 
transfers and salespeople, the precursor chemical 
manufacturers, producers, shippers and doing something about 
demand in this country.
    This isn't some squishy liberal answer to this problem. 
This is a part of a serious business of going after the 
problems where the roots are, and we should get over this 
nonsense about you're not being tough enough, you're being too 
tough, and get down to where it really makes a practical 
difference and go right at the heart of the problem.
    We're spending $411 million in fiscal 2002, the third 
largest amount of U.S. foreign aid of any country in the world, 
and we're not having much success except to ruin the lives and 
further exacerbate the suffering of people in Colombia.
    Mr. Chairman, I hope as we go forward that if you have the 
committee that deals with this issue, or whoever has it, we 
start dealing with the real things that will make a real 
difference as hard as they may be politically.
    Thank you.
    The Chairman. Thank you, Mr. Tierney.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman, and I thank you again 
for holding this hearing, one in a series, to address what 
unquestionably is our most challenging and serious social 
problem in this Nation, and that's the problem of narcotics use 
and abuse. And we're particularly concerned about the 
continuing problem we're having in heroin production. This 
isn't rocket science. We know where the heroin's coming from. 
We can do chemical analysis and even trace it to the fields and 
we know it's coming from Colombia. We know that in 1992 there 
was almost zero heroin produced in Colombia. I had the 
opportunity to serve as your Chair of the Criminal Justice, 
Drug Policy Subcommittee and looked at that issue during my 
tenure, some 2 years ago, worked on it back in the 1980's, 
Chief of Staff for Senator Hawkins. And the problem can be 
resolved if you have the will and you have a plan.
    We put together a plan. I was pleased to participate with 
you and others in developing Plan Colombia. Now the challenge 
is executing Plan Colombia. It's true that some of the traffic 
does move. Mr. Gilman and I and others were involved back in 
the 1980's and the 1990's and we worked with Bolivia and Peru. 
We eradicated a tremendous percentage of the cocaine and heroin 
coming from those countries in a very cost effective manner. We 
know where the drugs are. It's cheap to eradicate them and 
eradicate their production. It does take the will, both of the 
United States and the host country. We now know that we've made 
progress in cocaine and coca eradication in Colombia. We could 
do the same thing with heroin.
    We played games in the 1990's, unfortunately, under the 
Clinton administration and under the guise of human rights and 
protecting the peasants and all of the other things you've 
heard paraded today. President Pastrana attempted to negotiate 
with terrorists, and there's not any way you can negotiate with 
terrorists. You need to eliminate terrorists, create stability. 
And fortunately President Bush has that plan, is willing to put 
the military resources to stop the slaughter of people. And 
they love to bring up isolated cases of terrorism, and there is 
terrorism and destruction of life on both sides. The 
paramilitary, the FARC guerilla. But what you need is an end to 
that terrorism and you need to use whatever military means or 
enforcement to stop that. And the United States can provide 
those resources, should, and I believe will, and that will 
bring stability.
    If you want to trace the money in this, it's not that 
difficult. The money is provided by the drugs to terrorists who 
are committing terrorist acts and I don't care what side it is. 
They've slaughtered tens of thousands of people, not 17 in some 
isolated incident using U.S. arms. That's not the question 
here.
    So you have to have stability and you have to have a plan. 
And that will, folks, respect human rights. The rights of tens 
of thousands of Colombians have been violated. And they're not 
being displaced because of some crop eradication program. I 
spray crops in my backyard--or weeds in my backyard with 
defoliants that are stronger than what they're using in 
Colombia. That's another bogus argument. They're being 
displaced because of one of the worst civil wars and terrorist 
wars in the hemisphere.
    The demand--it's nice to talk about demand and treatment 
and treatment on demand. And we've tried that. We spent tens of 
billions of dollars on social programs in jail and everything 
else. I have friends who have kids that are hooked on drugs. I 
have friends who are hooked on drugs, and unfortunately, only 
about a third of those programs have any success. Addiction is 
a very difficult problem. And we've tried education and we're 
working on that. That program was screwed up in the last 
administration. But it takes, as we've learned, a combination 
of all of these things.
    So we've got to get Plan Colombia fully executed. And part 
of that is eradication of heroin. This isn't rocket science. 
And there's no excuse for an increase of 62 percent, which 
we'll hear testimony in a few minutes, I believe, increase in 
heroin production in Colombia. That's not acceptable. That's 
not going to be acceptable to this committee. So you've got to 
have the will. You've got to eradicate those drugs and use 
whatever means necessary to create stability and use all means 
to fight this scourge on all fronts.
    Finally, Plan Colombia does have a good plan. It has 
eradication, it has stabilization, which is so necessary to 
that region. And we even have an alternative crop development 
program and economic assistance. But we've got to restore our 
shoot down policy, our information policy, our micro herbicide 
policy, things that have been studied for too long and need to 
be put into action to eliminate this problem. So we can do it, 
and we know how to do it. We just need the will to do it.
    Thank you, Mr. Chairman.
    Mr. Burton. And thank you, Mr. Mica, for the work you've 
done on this in the past. We'll now hear from our first witness 
panel. Agent Felix Jiminez, Detective Tony Marcocci, how do you 
pronounce that? Marcocci? Thank you, Tony. Detective Sergeant 
Scott Pelletier. I'm getting close. Tom Carr. I can get that 
one without any trouble, Tom. And the undercover narcotics 
detective who's in the cubicle.
    Would you please stand and raise your right hand?
    [Witnesses sworn.]
    Mr. Burton. Let the record reflect the witnesses responded 
in the affirmative. And I appreciate you all being here today.
    Do any of you have opening statements you'd like to make? 
How about you, Mr. Jiminez. We'll start with you. And if you 
could keep your statements to around 5 minutes I'd really 
appreciate it. And can you pull the mic close to you because we 
don't pick that up sometimes. You'd better turn the mic on.

   STATEMENTS OF FELIX J. JIMENEZ, RETIRED SPECIAL AGENT IN 
CHARGE, DEA, NEW YORK FIELD DIVISION, SPECIAL AGENT IN CHARGE, 
    TRANSPORTATION SECURITY ADMINISTRATION, NEW YORK FIELD 
  DIVISION; DETECTIVE TONY MARCOCCI, WESTMORELAND COUNTY, PA, 
DISTRICT ATTORNEY'S OFFICE; DETECTIVE SERGEANT SCOTT PELLETIER, 
    PORTLAND, ME, POLICE DEPARTMENT, HEAD, PORTLAND POLICE 
 DEPARTMENT-MAINE DRUG ENFORCEMENT ADMINISTRATION HEROIN TASK 
FORCE; TOM CARR, DIRECTOR, BALTIMORE-WASHINGTON HIGH INTENSITY 
DRUG TRAFFICKING AREA [HIDTA]; AND MR. X, UNDERCOVER NARCOTICS 
        DETECTIVE, HOWARD COUNTY, MD, POLICE DEPARTMENT

    Mr. Jimenez. Chairman Burton and members of the committee, 
good morning. I would like to begin by thanking the committee 
for the opportunity to appear before you today. I commend the 
committee for their unwavering support in the fight against 
illegal drug trafficking. As a former Special Agent in Charge 
of the New York Field Office of the Drug Enforcement 
Administration, and with over 30 years of drug law enforcement 
experience, I would like to provide the committee with an 
overview of South American heroin trafficking and the 
distribution and its effects to the New York geographic area.
    Heroin traffickers from South America are bringing some of 
the world's purest heroin into New York. Of the world's four 
major heroin sources areas, South America, Southeast Asia, 
Southwest Asia and Mexico, heroin from South America is the 
most frequently trafficked and widely available in the New York 
area. During my tenure as the Chief of the Heroin Desk in DEA 
headquarters in the late 1980's and early 1990's, DEA began 
developing intelligence that drug traffickers based in Colombia 
were cultivating opium poppies and seeking to develop a heroin 
processing capability. Significant shipments of South American 
heroin began arriving in New York in 1991. By applying the same 
trafficking expertise used by their peers to dominate the 
cocaine trade, and by significantly reducing prices and 
increasing purity, South American heroin traffickers were able 
to dominate New York's heroin market by the mid 1990's.
    Unlike the cocaine kingpins and cartels of the 1980's, 
South American heroin organizations are generally loose 
confederations of several organizations and entrepreneurs who 
realize that a high profile is counterproductive and dangerous. 
Originally relying on relatively small heroin conversion 
laboratories in Colombia producing a few kilograms of heroin, 
traffickers today utilize laboratories capable of producing 
significantly greater quantities.
    South American heroin traffickers originally smuggled their 
heroin into New York in relatively small amounts primarily 
using couriers internally carrying up to a kilogram of heroin 
or flying on direct commercial aircraft to JFK Airport from 
Colombia. Over the time South American heroin organizations 
grew in number size and experience. These organizations' 
methods and tactics continually evolved, becoming more 
sophisticated and difficult to counter.
    Reacting to an increased rate of interdiction for direct 
flights from Colombia, smugglers began transiting through 
secondary countries and changing methods of conveyance. In 
addition to the direct flights couriers now flew to the U.S. 
airports often from secondary countries, such as Venezuela, 
Brazil, Ecuador, Argentina, Chile, as well as from intermediate 
stops in Central America, the Caribbean and Mexico. In one of 
the first counter moves made by the South American heroin 
traffickers, they began routing heroin couriers to the United 
States through Argentina, Brazil and Chile, traditionally not 
identified as source countries.
    Additionally, the traffickers aggressively sought out 
citizens of these countries to become couriers, as they do not 
need a tourist visa to enter the United States, reducing the 
scrutiny given to these potential couriers. As a result, South 
American heroin smuggled into the United States by the 
Chileans, the Brazilians and especially Argentinian couriers 
sharply escalated. Regardless of the route chosen, the 
nationality of the courier and the nationality of the person 
who recruited the courier, Colombian traffickers remained the 
leader and controllers of the South American heroin trade in 
New York.
    Traffickers began using more sophisticated methods, 
smuggling heroin in luggage, postal shipments and container 
cargo. Soon virtually all the methods utilized for smuggling 
cocaine were adopted for heroin smuggling. Additionally, 
smuggling methods became more sophisticated.
    The volume smuggled increased. For the last half the 1990's 
heroin shipment per courier averaged about one to three 
kilograms of heroin. Starting around 1999, authorities began 
interdicting larger shipments. The average amount smuggled by 
couriers is presently between five to eight kilograms a 
shipment, either hidden in a combination of luggage, strapped 
to the courier, and/or swallowed by the courier. Ever 
expanding, South American----
    Mr. Burton. Mr. Jimenez. If you could try to sum up, we 
would appreciate it. I know you have a very lengthy statement 
and it will be put in the record so we can read all of it, but 
we want to make sure we have time for everybody to be 
questioned properly.
    Mr. Jimenez. OK.
    Mr. Burton. Thank you, sir.
    Mr. Jimenez. Well, in a nutshell we have more heroin 
available in the United States. It's more pure and more cheaper 
than ever. And about 90 percent of the heroin available here in 
the United States is from Colombian origin.
    That's my summation to the problem that we're facing in 
this country.
    [The prepared statement of Mr. Jimenez follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.019
    
    [GRAPHIC] [TIFF OMITTED] T4606.020
    
    [GRAPHIC] [TIFF OMITTED] T4606.021
    
    [GRAPHIC] [TIFF OMITTED] T4606.022
    
    [GRAPHIC] [TIFF OMITTED] T4606.023
    
    [GRAPHIC] [TIFF OMITTED] T4606.024
    
    Mr. Burton. Thank you so much. We really appreciate the 
hard work.
    Mr. Jimenez. My pleasure, Your Honor.
    Mr. Burton. Mr. Pelletier. Is that--was I closer that time?
    Mr. Pelletier. That was correct, Mr. Burton. Thank you.
    Mr. Chairman and members of the committee, I'd like to 
first thank you for my--this opportunity to testify before you. 
My name is Scott Pelletier. I was born and raised in Portland, 
Maine. I'm presently a Detective Sergeant with the Portland 
Police Department, and I'm assigned to the State task force, 
which is Maine Drug Enforcement Agency. I have been with--in 
law enforcement for over 15 years. I've worked a number of 
different types of jobs from the regular street beat patrol 
officer all the way to investigations from everything from 
theft to homicide, and the majority of my time has been with 
drug-related investigations. Since 1999, I've been assigned to 
the Portland office of the Maine Drug Enforcement Agency as a 
Supervisory Special Agent. The MDEA is a multi-jurisdictional 
task force that has six offices statewide.
    In the State of Maine there are 16 counties. Maine has a 
population of approximately one and a quarter million people. 
For that amount of people there are only 34 drug agents 
assigned to MDEA. Twenty-seven of those agents are federally 
Byrne grant funded. Without their funds we'd essentially have 
no drug agents other than local police officers. My offices 
consist of myself and four other agents and we're located in 
the city of Portland, and we're responsible for all the drug 
investigations within Cumberland County, Cumberland County 
being the largest county in the State, with approximately a 
quarter of a million people and it expands about 853 square 
miles.
    Last year, in my office alone 38 percent of our total 
arrests were heroin related, for either its sale or possession. 
The city of Portland may be considered a small city compared to 
other cities in America, but like many of those larger cities I 
can tell you with complete confidence heroin is the single 
largest drug threat to our area.
    Many people believe that heroin is making a comeback. I'm 
here to tell you that it essentially has never left. There have 
been significant changes, however, in heroin trends due in 
large part to Colombian cartels aggressively adding heroin to 
their supply of available drugs being marketed throughout the 
United States. Once the Colombians decided to market their 
heroin it became cheaper and more pure.
    I've witnessed firsthand how heroin's increased 
availability has impacted the city of Portland. The most 
significant trend has been due to this increased availability. 
In Maine, during our fiscal year 2001, seizures of heroin rose 
171 percent over fiscal year 2000, and a dramatic 622 percent 
over fiscal year 1999. In 2002 there was a 56 percent increase 
in heroin seizures over fiscal year 2001. And in addition, 
heroin arrests in 2001 rose 50 percent over 2001 and 110 
percent over the previous year of 1999.
    There has historically been a problem in Maine with heroin 
but over the past 5 years it has become nothing short of 
epidemic. During my 15 years in law enforcement, I personally 
witnessed a devastation that heroin has inflicted on countless 
families within my community, not to mention throughout the 
State. The increased availability of heroin is the single most 
contributing factor when accounting for the State's dramatic 
increase in heroin-related incidents, including its sale, use, 
arrests and, sadly, deaths.
    During the nineties, I was assigned to conduct numerous 
undercover operations where I would personally purchase heroin 
from in-state and out-of-state suppliers. During that time, a 
heroin bag or one single dose cost approximately 35 to $50 a 
bag for a single dose with a purity level between 10 and 30 
percent. At that time it was approximately a dose of heroin 
weighed one-tenth of a gram.
    Within the city of Portland I knew almost all the addicts 
by name. They tended to be poor, uneducated, middle-age people 
who were in their stages--late stages of substance abuse.
    Today a bag of heroin, the same bag of heroin costs between 
15 and $25 a bag in southern Maine, and the purity levels are 
consistently in the 80th percentile if not more pure than that.
    Today with the higher purity levels, a bag of heroin 
contains now 1 one-hundredth of a gram of the highly addictive 
drug. If I could for a moment--I believe you'll find a packet 
of Sweet and Low before you--give you this visual 
demonstration. Most people, we understand these numbers, but if 
you take a Sweet and Low package, they're measured out in 1 
gram. In you were to open that package and pour it in front of 
you and separate that 1 gram into 100 equal parts, if you can 
do it--it's very difficult to do--once you get around 10, there 
is just so little of the drug there, or if that was the drug.
    The shipments into the United States are in the kilos, 
1,000 grams to a kilo. That translates into 100,000 doses, 
single doses of this highly addictive drug. It's no wonder why 
our young people feel immune that such a small, minute piece, 
little bit of white powder, could ever affect them.
    Today a single dose of heroin can be purchased for $4 a 
bag. That's less than you could purchase a happy meal or a 
convenience meal at any of our local restaurants. Obviously the 
increased availability of this drug, along with the 
simultaneous decrease in its price, has created a market that 
makes this drug attractive to younger people who oftentimes may 
become addicted after using it only one time. The drug is made 
even more attractive to young adults who believe they cannot 
become addicted to heroin if they only snort or smoke it rather 
than inject it. This myth is quickly dispelled, however, after 
the first use, first or second use of this incredibly addictive 
drug.
    This dire problem is a direct result of the Colombians 
intentionally flooding their established cocaine markets with a 
stronger, cheaper heroin. We can no longer wonder if our 
children will be exposed to heroin. Now we must wonder when 
will they be exposed and pray that they choose not to 
experiment with it.
    Today I can only estimate the number of addicts in Portland 
alone is between 12- and 1500, and I no longer know them all by 
name. I do however know, based on our arrests, that the average 
user of this heroin is no longer a late-stage substance abuser; 
they are teenagers, young adults, college students, and high 
school graduates from every walk of life. It is no longer 
exceptional for law enforcement to have contact with an 18- or 
19-year-old heroin user who is already into their first or 
second year of substance abuse.
    Mr. Burton. Mr. Pelletier.
    Mr. Pelletier. This translates into younger addicts 
committing crimes such as robberies, thefts----
    Mr. Burton. If you could sum up, we'd appreciate it, sir.
    Mr. Pelletier. Certainly I will. It has often been said, as 
Maine goes, so goes the Nation. In this case I hope that is not 
true. I urge you to make it a priority to assist officials here 
in the United States and abroad who desperately want to keep 
heroin out of the country by eradicating heroin at its source. 
Our children are our future. We must afford them every 
opportunity to succeed in life and reduce the likelihood of 
experiencing the death and despair that comes with heroin 
addiction. Thank you.
    [The prepared statement of Mr. Pelletier follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.025
    
    [GRAPHIC] [TIFF OMITTED] T4606.026
    
    [GRAPHIC] [TIFF OMITTED] T4606.027
    
    [GRAPHIC] [TIFF OMITTED] T4606.028
    
    [GRAPHIC] [TIFF OMITTED] T4606.029
    
    [GRAPHIC] [TIFF OMITTED] T4606.030
    
    Mr. Burton. As I said to Mr. Jimenez, I say this to all of 
you, we really appreciate the hard work and risks that you take 
in trying to protect us; and we're very happy that you're here 
today.
    Mr. Marcocci. I'm going to have to learn more about you 
Italians.
    Mr. Marcocci. Chairman Burton and committee members, it is 
an honor and a privilege to speak to you today about heroin. I 
am Detective Tony Marcocci, along with my partner, Detective 
Terry Kuhns of the Westmoreland County District Attorney'S 
Office, and Detective Ray Dupilka of the Latrobe Police 
Department. In 1985, Detective Kuhns and I, along with other 
law enforcement, first encountrered a new drug on the streets 
of Westmoreland County. That drug was crack cocaine, which is 
cocaine in its purest form.
    During these investigations we learned of the addictive 
qualities of crack. While their children went without food or 
clothing, we watched as parents traded food stamps for crack 
cocaine, and in other cases individuals committed crimes to 
obtain it.
    Addressing this drug problem presented a challenge never 
before seen. We thought that through public education, drug 
awareness programs, and dedicated police work, we could 
eliminate the use of crack cocaine. We were wrong. With all the 
time, manpower, and effort law enforcement spent to combat the 
crack cocaine problem, we now face an even more urgent, 
pressing, deadly, dangerous and addictive enemy.
    In the past 18 months we have seen an unprecedented rise in 
the use of a new form of an old drug in Westmoreland County. 
The wholesalers of this drug, in an attempt to assist the 
buyers, print the names of their product on the sides of each 
bag. Some of these names include Lightening, 12 Monkeys, Mombo 
King, Murder One, Boyon, and Brain Damage. This drug is 
Colombian heroin. I have brought some evidence samples of these 
bags for you to understand a little better what I'm talking 
about.
    These bags contain very small quantities of heroin, usually 
between .01 grams and .03 grams. The reason that such a small 
amount of heroin can be placed into these bags is because the 
purity of this heroin is between 80 and 90 percent. We have 
never experienced heroin of this quality in our careers. Heroin 
buyers are able to purchase these bags on the streets of 
Westmoreland County for 20 to $30 a bag. Some individuals drive 
to neighboring communities where they are able to purchase 
these bags for $100 a bundle, which is a 10-unit bag, bundle of 
heroin, or $500 per brick, which is, say, a 50-unit quantity of 
heroin. Some of these individuals are doing this as a way to 
make money to support their own habit.
    Heroin has made its way into the mainstream of drug use in 
adults and unfortunately in our high schools and middle schools 
with children as young as 12 and 13 years old. Almost all 
heroin users tell us that their addictions began with 
prescription drugs such as Oxycontin and Vicodin. They develop 
a tolerance and progress upwards to heroin. They also advised 
us that they began snorting heroin because they believed it was 
not as addictive if ingested in that manner. They were just 
kidding themselves. Once they began to develop a tolerance to 
snorting, they began injecting it. After working 28 years in 
law enforcement, we have seen many tragedies, but nothing is 
more sad than seeing a child or a teen become the victim of a 
crime. In Westmoreland County, we're seeing it daily. My 
partner and I have witnessed teens dying from heroin overdoses. 
We've executed search warrants and spoken with 16- and 17-year-
old children who say they have already been through 
rehabilitation and they're still using heroin. These same teens 
tell us how they are coping with the ancillary effects of their 
heroin abuse such as Hepititis C and HIV. Clearly the societal 
costs of heroin extend beyond the users and their families.
    Throughout our years in the narcotics field, we have spoken 
with individuals who have used heroin for a short time and 
others who have used it for years. They may be detoxed or 
attend court-ordered treatment facilities for their heroin 
abuse. These people may stay heroin-free for a week, a month, 
or in some cases a few months, but they will always go back to 
using heroin. The sad reality of heroin abuse is we personally 
know of no success cases as a result of treatment. It's a 
disturbing reality to look into the eyes of a parent or their 
child, knowing in our hearts there is no hope that child will 
ever beat this addition.
    Often people believe that this is an inner-city problem, 
but it's not. Westmoreland County is a typical rural and 
suburban community population of approximately 400,000. Often 
people believe that this problem is with low-income 
individuals, but it's not. Heroin has touched families of all 
social and economic backgrounds. In Westmoreland County we have 
had 12 overdoses resulting in death this year alone, all of 
which were between the ages of 19 and 46. Ten were male, two 
were female, all were white. As a comparison to these 12 
deaths, in the preceding 5 years we only had five overdoses 
resulting in death.
    Upon checking with one local community hospital emergency 
room, they report the number of individuals seen for heroin 
overdoses has doubled every year for the past 3 years, with 60 
individuals being examined this year, 2002. I'm sure if we 
contacted all the hospitals in our area, that number would 
multiply exponentially.
    My partner and I are asked regularly to speak before 
committees and organizations. In September of this year, we 
took part in a drug symposium in our county. A speaker at this 
symposium presented an analogy to our current heroin problem. 
As you will recall, September--in September, a sniper was 
killing and critically injuring individuals in the Washington, 
DC, area with no regard to race, age, or income level. As a 
result of the shooting spree, 10 people died and 3 were 
critically injured. During this time, a massive effort was made 
by local, State and Federal agencies to stop the senseless 
killings. Cooperation and open lines of communication among the 
various law enforcement agencies played a large part in 
bringing this case to a successful conclusion. These agencies 
were attempting to stop a faceless killer of 10 in the 
Washington, DC, area.
    We in Westmoreland County are faced with a killer of our 
own. Our killer is heroin. It has taken 12 lives this year 
alone and will continue to destroy lives at an ever-increasing 
rate. Knowing now what is happening in our small community and 
others like it, my belief is that eliminating this drug in its 
country of origin will help all of us at the local level. If 
heroin can be eliminated at its source, it would reduce the 
amount of heroin on the streets in my community and in many 
others, helping law enforcement to help the community that we 
are sworn to protect and serve. Thank your, Your Honor.
    Mr. Burton. Thank you Mr. Marcocci. The only people that 
may call me Your Honor is my kids. So you don't need to call me 
that.
    [The prepared statement of Mr. Marocci follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.031
    
    [GRAPHIC] [TIFF OMITTED] T4606.032
    
    [GRAPHIC] [TIFF OMITTED] T4606.033
    
    [GRAPHIC] [TIFF OMITTED] T4606.034
    
    [GRAPHIC] [TIFF OMITTED] T4606.035
    
    Mr. Burton. Mr. Carr.
    Mr. Carr. Good afternoon, Chairman Burton----
    Mr. Burton. Turn the mic on.
    Mr. Carr. Mr. Gilman, Mr. Tierney, and especially Ms. 
Norton who is from my area. My name is Tom Carr. I am the 
Director of the Washington-Baltimore HIDTA. The HIDTA program, 
as you all know, is a program designed to enhance and 
coordinate drug control efforts in certain geographic areas of 
the country. The Washington-Baltimore HIDTA was designated in 
1994 by the Office of National Drug Control Policy, and we 
focus on the central part of Maryland, to include Baltimore, 
all of Washington, DC, and the northern part of Virginia.
    As the heading for the hearing here today, ``America's 
Heroin Crisis'' indicates, there is a growing crisis perhaps in 
other areas of the country, but I'm here to tell you that in at 
least the Baltimore region, that's been a standing epidemic for 
years.
    I have submitted my testimony and other documents to you. 
Let me just briefly cite you some statistics which I think 
point out the gravity of the situation. Baltimore's population 
is around 651,000. That accounts for around 12 percent of the 
total population of Maryland. Yet 55 percent of all the drug 
overdoses occur in Baltimore. Of the 306 overdose deaths that 
occurred in Baltimore last year, 86 percent were connected 
either directly or in combination with an overabuse of a 
narcotic, primarily either heroin, morphine, or methadone, all 
spinning around the heroin industry. What we've seen since the 
middle nineties is an increase in purity of the heroin.
    Baltimore, another shocking figure estimates--this is from 
their health department--they have 60,000 heroin addicts. Again 
I remind you, in a population of 651,000 people, that's 9 
percent of the population. It's an astonishing figure.
    I wish Congressman Cummings was here today. He could 
certainly verify what I'm saying because, unfortunately, many 
of them live in and about his district. And we've been working 
very hard with him to come up with some solutions for that. But 
there are some other things that sort of point to that. All of 
Baltimore is not bad, just pockets of Baltimore have these 
problems. For example, when you look at the high crime areas 
where the homicides are--is the chart up here? I don't need to 
see it. If you look at the concentration of those dots in there 
which represent homicides since--what does it begin with, 1990?
    Mr. Burton. 1992.
    Mr. Carr. 1992 up through 2000, I believe.
    Mr. Burton. 2001.
    Mr. Carr. Thank you, sir. I should be able to see it, I 
guess. At any rate, if you look at the pockets there, you can 
see there hasn't been many changes as to the locality of these 
homicides. I could show you other crimes that cluster there as 
well.
    My point is that there is where the area is bad. This is 
where you see many single parents; in fact, usually fatherless 
households, absentee, they're the absentee parent, and the 
parents themselves have arrest records, drug--history of drug 
abuse and drug problems. Only 54 percent of the seniors in the 
school system in Baltimore graduate high school.
    And another alarming figure that we went over yesterday 
with the police commissioner, Ed Norris, is that 87 percent of 
the births last year in Baltimore were to unwed mothers. That 
has some real ominous forecast for Baltimore and what may come 
in there.
    In Baltimore since--from 1990 to 1999, 3,200 homicides. 
Most of those, between 75-80 percent, are drug related. I'm 
happy to report that thanks to the efforts of the Baltimore 
Police Department, Congressman Cummings' support, work of the 
Baltimore HIDTA, that we've got that number down below 300. So 
it was the first time in a decade we were able to get that 
homicide rate down, number of homicides down below 300.
    According to our indications, according to reports we have, 
the heroin that we see in Baltimore comes from New York and 
Philadelphia. We see heroin--this epidemic is starting to 
spread into the D.C. area; we see gangs trafficking heroin and 
cocaine in this area. And along with that, I can assure you, 
will come more violence because it's street-level trafficking; 
the fight for the drug market, the fight for the drug corner to 
make that dollar that Mr. Tierney referred to and that is so 
important to focus on will take place when this trade comes 
down here.
    I mean, that's what it's all about. This is a business 
that's designed to make money. These people aren't in this 
job--or in selling drugs because they're altruists believing 
that everyone has a right to use drugs; they're in this to make 
money. And they've proven in Baltimore and other areas over and 
over again they will kill to do it.
    Now, so far as the source of the heroin, in the late 
1980's, early 1990's it was clear to us that the source of the 
heroin was Southeast Asia and Southwest Asia. Indications are, 
from different sources, although we certainly can't confirm all 
of it, is that much of this heroin now--what the police 
departments estimate and others estimate--upwards of 90 percent 
is South American heroin. At least it has the signature of 
South American heroin.
    Most of our distributors are locals. It's a cottage 
industry. They can drive to source cities like New York, 
Philadelphia, buy drugs, come back and quickly double their 
money. So I guess they look at it as, why should I go, why 
should I go to high school as evidenced by the dropout rate, 
why should I go get a minimum-pay job at McDonald's when I can 
sell drugs on the street?
    Mr. Burton. And make hundreds.
    Mr. Carr. The trouble is, it's dangerous. I'm going to 
conclude; I realize I'm taking too much time. I'm sorry.
    I just want to say that despite all these sad figures I'm 
quoting to you, I could cite even more, we've taken the 
attitude that you can either complain that the rose bushes have 
thorns or rejoice that the thorn bushes have roses. We're doing 
a lot of good things. We've seen them make a lot of changes and 
a lot of headway, but we need to get heroin off the street.
    Mr. Burton. Thank you, Mr. Carr. I think you made a very, 
very graphic argument.
    [The prepared statement of Mr. Carr follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.036
    
    [GRAPHIC] [TIFF OMITTED] T4606.037
    
    [GRAPHIC] [TIFF OMITTED] T4606.038
    
    [GRAPHIC] [TIFF OMITTED] T4606.039
    
    [GRAPHIC] [TIFF OMITTED] T4606.040
    
    [GRAPHIC] [TIFF OMITTED] T4606.041
    
    [GRAPHIC] [TIFF OMITTED] T4606.042
    
    Mr. Burton. I don't know your name and I'm not supposed to 
use it, so would you like to make an opening statement?
    Mr. X. I would. Thank you.
    Good morning. I would like to thank the committee for 
taking the time to hear me on the topic of heroin. My name is 
being withheld because of my work in an undercover capacity and 
to not jeopardize cases which I'm currently involved in. 
However, I can say that I'm a member of the Howard County 
Police Department in Maryland. I am currently assigned to the 
Vice and Narcotics Division within that department. I have been 
a sworn police officer for just about 7 years.
    Howard County itself is in the Washington metropolitan area 
and includes a multicultural, very diverse population of 
approximately 258,000 citizens. It's approximately 252 square 
miles. It is one of the wealthiest counties in the country and 
also one of the most educated countries within the country. 
It's home to many high technology companies as well as farms in 
its rural areas.
    However, just as too many other communities throughout the 
country, Howard County is not spared from the scourge of 
illegal drugs. Primary responsibility for the investigation of 
violations of the controlled substance laws are assigned to the 
Vice and Narcotics Division, which I'm a part of.
    It is common knowledge and well known to police agencies 
around the country that a large number of street crimes, such 
as robbery, theft, assault and murder, are directly connected 
to the drug trade. The unit to which I'm assigned is tasked to 
address the drug trade in a proactive, community-based way. In 
this way, not only is the drug trade directly affected, but 
crimes associated with the sale and use of drugs are also 
curtailed.
    The majority of our investigations revolve around marijuana 
and crack cocaine at this time. These drugs are the most 
commonly seized. However, the Howard County Police Department 
is currently seeing a rise in seizures of PCP, phencyclidine, 
heroin and methamphetamine.
    The focus of this committee hearing is on heroin. Heroin, 
as we know, is a highly addictive and dangerous drug. It is 
responsible for many accidental and intentional overdose deaths 
throughout the country. Howard County is not spared by this 
fact. Statistics alone cannot paint a picture of heroin use and 
its dramatic effect on the Howard County community.
    Death from heroin overdose often comes from unexpected 
places. I'd like to tell you one story. Colombia, Howard 
County, Maryland, a young male was in his first year of college 
in Pennsylvania. He was from an upper middle-class family. He 
was a promising musician and a member of two different bands. 
He had trained to become a professional musician.
    While in high school, he experimented with and used 
marijuana. When he went away to school, he began to use heroin. 
As all too often happens, he became addicted. He then left 
college and came home. He continued to use heroin. He was 
apparently doing well at home. He had good grades. He was in a 
long-term relationship with his girlfriend. He had no problems 
with his parents and appeared to live a happy life.
    One day he told his father he was going upstairs to study. 
Around 9:45 p.m., his father wanted to talk to him. He knocked 
on his bedroom door and got no response. He then forced his way 
into the room and found his son unconscious and unresponsive. 
Paramedics were called and the father attempted to start CPR. 
When EMS personnel arrived, they took over rescue efforts. 
These efforts failed and the young musician died.
    The cause of death was ruled to be an accidental overdose 
of heroin. During an interview with the parents, they stated 
they did not know the scope of their son's addiction. They knew 
he used heroin while in Pennsylvania, but did not know he still 
used it. The last memory they have of their son is him lying in 
bed with a syringe in his arm and blood coming from his mouth 
and nose.
    A trend the detectives in my unit are currently seeing is 
that heroin is becoming a drug more commonly used by 
adolescents and younger adults. The younger heroin users are 
generally not injecting it first, their heroin, they're 
snorting the heroin powder. Heroin powder, that we've been 
seeing within the county, is generally white and generally 
packaged in glass bottles. When talking to arrestees and 
informants, both advise that they usually go to Baltimore City 
to obtain their heroin, and bring back quantities of heroin to 
use and sell.
    Also, as mentioned before, the use of heroin is related to 
many other crimes. One arrestee in particular said he had a 
$400-a-day heroin habit. He also stated he does not inject the 
heroin because he does not like needles. I think he's kidding 
himself. He stated he likes to snort it. To support his habit 
he steals cars, shoplifts and commits burglaries. This is a 
person from an upper middle-class family, lives in a nice home. 
He's 19 years old, said he has been using heroin for several 
years now. He's not your stereotype junkie, but represents a 
growing trend in younger, more affluent persons using heroin.
    In summary, the stories that I have told you are from 
experiences of the detectives of the Howard County Police Vice 
and Narcotics Division. As I said before, I could spend hours 
talking about persons' lives that I've certainly seen ruined by 
heroin.
    The fact is that heroin is becoming a much more commonly 
used drug. It's no longer the stereotype junkie in the dark 
alley of a city with a needle sticking out of his arm. Heroin 
is now moving rapidly into the suburbs, and Howard County in 
particular, and affecting families that it is not normally 
traditionally associated with.
    Heroin not only destroys the person using it, but all the 
people around him or her. Mothers abandon their fathers--
families, sons and daughters die, and families are destroyed 
all from heroin. Thank you for your time.
    Mr. Burton. Thank you, Detective. We really appreciate 
that.
    First of all, I want to thank all of you. I know you lay 
your lives on the line on a daily basis trying to deal with 
this crisis.
    I've been in public life off and on for about 35 years. I 
know I look a lot younger, but it's 35 years--I'm glad you 
didn't laugh at that--but I want to tell you something. I have 
been in probably 100, 150 hearings like this at various times 
in my political career. And the story is always the same. This 
goes all the way back to the 1960's, you know, 35, 40 years 
ago. And every time I have a hearing, I hear that people who 
get hooked on heroin and cocaine become addicted and they very 
rarely get off of it. And the scourge expands and expands and 
expands.
    And we have very fine law enforcement officers, like you, 
who go out and fight the fight; and you see it grow and grow 
and grow, and you see these horrible tragedies occur. But 
there's no end to it.
    And I see young guys driving around in tough areas of 
Indianapolis in cars that I know they can't afford, and I know 
where they're getting their money. I mean, there is no question 
a kid can't be driving a brand-new Corvette when he lives in 
the inner city of Indianapolis, in a ghetto ,and you know that 
he's got to be making that money in some way that's probably 
not legal and probably involves drugs.
    Over 70 percent of all crime is drug-related, and you've 
alluded to that today. We saw on television recently Pablo 
Escobar gunned down and everybody applauded that and said 
that's the end of the Medellin cartel. But it wasn't the end; 
there's still a cartel down there. They're still all over the 
place.
    When you kill one, there's 10 or 20 or 50 waiting to take 
his place. You know why? It's because of what you said just a 
minutes ago, Mr. Carr and Mr. Marcocci, and that is, there's so 
much money to be made in it, there's always going to be another 
person in line to make that money.
    And we go into drug eradication and we go into 
rehabilitation, we go into education, and we do all these 
things; and the drug problem continues to increase, and it 
continues to cost us not billions, but trillions of dollars, 
trillions. We continue to build more and more prisons. We put 
more and more people in jail. We know that the crimes that 
they're committing are related most of the time to drugs.
    So I have one question I'd like to ask all of you, and I 
think this is a question that needs to be asked. I hate drugs. 
I hate people who have to--who succumb to the drug addiction. I 
hate what it does to our society. It's hit every one of us in 
our families and friends of ours.
    But I have one question that nobody ever asks and that's 
this question: What would happen if there was no profit in 
drugs? If there was no profit in drugs, what would happen?
    I'd like for any of you to answer that. If they couldn't 
make any money out of selling drugs, what would happen?
    Mr. Carr. If I could comment, if we took away all the 
illegal drugs today, we're still going to have a drug problem.
    Mr. Burton. I understand that. I'm talking about new drugs.
    Mr. Carr. The question is--what you're arguing then is 
complete legalization?
    Mr. Burton. No. I'm not arguing anything. I'm asking the 
question. Because we've been fighting this fight for 30 to 40 
years--let me finish--we've been fighting this fight for 30 to 
40 years and the problem never goes away. New generations, 
younger and younger people get hooked on drugs. Kids in grade 
schools are getting hooked on drugs. Their lives are ruined. 
They're going to jail. They're becoming prostitutes and drug 
pushers because they have to make money to feed their habit.
    These horrible drug dealers, many of whom reason--using 
drugs, they send free drugs into schools and school yards and 
everything else to hook these kids; and the problem increases 
and increases and increases. And nobody ever asks this 
question.
    I'm not inferring anything, because I hate drugs. I hate 
the use of it. I hate what it's done to our society. But the 
question needs to be addressed at some point. What would happen 
if they don't make any money out of it?
    Mr. Carr. I don't think you can create a situation where no 
one makes any money out of it. There's always going to be a 
black market. I don't think the American public is going to 
say, OK, well, drugs don't cost anything, but only 18-year-olds 
can have it, or 18 and above; then you have a black market for 
the minors. No one is going to say 2-year-olds can have heroin, 
5-year--where do you make that demarkation? So I don't think 
you can get to that point where you have a laissez faire type 
of drug business without any profit in it. That would reduce--
even with that would reduce some forms of crime. But you're 
still going to have other crimes there because we aren't 
addressing----
    Mr. Burton. How about the overall effect on our society? 
The long-term problem with our society, the number of people 
that are being addicted in our society, would it go up or down 
if there was no profit?
    Mr. Carr. Oh, I think it would go up. If people were told 
that it was free, I think people would try it more and get 
addicted.
    Mr. Burton. I didn't say free.
    Mr. Carr. I think people would try it more if it was 
available.
    Mr. Burton. Well, I don't think that the people in Colombia 
would be planting coca if they couldn't make any money. And I 
don't think they'd be refining coca and heroin in Colombia if 
they couldn't make any money. And I don't think that Al Capone 
would have been the menace to society that he was if he 
couldn't sell alcohol on the black market. And he did, and we 
had a horrible, horrible crime problem.
    Now, the people that are producing drugs over in Southeast 
Asia and Southwest Asia and in Colombia and everyplace else, 
they don't do it because they like to do it. They don't fill 
those rooms full of money because they like to fill it full of 
money. They do it because they're making money.
    Mr. Carr. Exactly.
    Mr. Burton. The problem, in my opinion, is that at some 
point we have to look at the overall picture. And the overall 
picture--I mean, I'm not saying there's going to be people who 
are addicted and you're not going to have education and 
rehabilitation and all those things that you're talking about. 
But one of the parts of the equation that has never been talked 
about, because politicians are afraid to talk about it--this is 
my last committee hearing as chairman, last time, and I've 
thought about this and thought about this, and one of the 
things that ought to be asked is, what part of the equation are 
we leaving out and is it an important part of the equation, and 
that is the profit in drugs.
    Don't just talk about education. Don't just talk about 
eradication. Don't just talk about killing people like Escobar, 
who is going to be replaced by somebody else. Let's talk about 
what would happen we started addressing how to get the profit 
out of drugs.
    Mr. Carr. I think that's something that needs to be looked 
at, but I still question the idea of--if you're taking the 
profit out of drugs, that doesn't mean you're eliminating the 
demand for drugs. People are still going to want heroin, so 
someone is going to produce it and someone is going to sell it.
    Mr. Burton. But the new addictions, would they be 
diminished if you didn't have somebody trying to make money, if 
you didn't have these people going from Philadelphia to New 
York or from Washington to New York? Why would they drive from 
here to New York to get these drugs, to sell them, if they 
couldn't make any money?
    Mr. Carr. I think they're going to make money. I don't know 
how you're going to eliminate them, not making money. If they 
couldn't make money, certainly they wouldn't; they would do 
something else.
    Mr. Burton. That's right. And that's part of the equation 
that ought to be looked at that we haven't been looking at.
    Mr. Carr. I think you're right.
    Mr. Burton. Ms. Schakowsky, do you have questions?
    Ms. Schakowsky. Mr. Chairman, I wanted to stay and hear 
your question, because I want to thank you for raising it. I 
think we can't be afraid to raise these kinds of questions when 
we discuss this whole issue of addiction and substance abuse, 
the attendant crime and law enforcement issues that go with it. 
And I think--going forward, I'd welcome, under your leadership, 
that we explore this issue fully and follow your line of 
questioning.
    I do have to leave. I want to thank the panel. I'm hoping I 
will get back for the other panels, but I wanted to ask to 
include in the record a couple of articles by Doug Castle from 
the Center for International Human Rights, Northwestern 
University School of Law, regarding the issue of Santo Domingo, 
what I believe was a corporate cover-up in Colombia states and 
the killing and covering up in Colombia, if I could make these 
part of the record.
    Mr. Gilman [presiding]. Without objection.
    Ms. Schakowsky. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.043
    
    [GRAPHIC] [TIFF OMITTED] T4606.044
    
    [GRAPHIC] [TIFF OMITTED] T4606.045
    
    Mr. Gilman. Do you have any further questions, Ms. 
Schakowsky?
    Ms. Schakowsky. No, thank you.
    Mr. Gilman. I'd like to ask Mr. Carr, you know, the 
staggering numbers of heroin deaths in Baltimore crime and 
violence are really an indictment of the de facto legalization 
scheme in Baltimore of a few years ago. Do you agree with that?
    Mr. Carr. I wholeheartedly agree with that. We had a 
program that was put forth by then the mayor, Mayor Shmoke, who 
was calling for legalization. They were instituted programs 
that were on the--I call them ``feel-good'' programs. You feel 
good because you institute them. That doesn't mean they do any 
good.
    It wasn't a coordinated effort. As a result, attention was 
drawn away from enforcement, and crews or gangs were able to 
get strong footholds in neighborhoods and on the street; and as 
a result of that, homicides went up because they were fighting 
for turf.
    That's what the current administration has turned around, 
the police department. People like Congressman Cummings have 
really helped turn that around up there.
    Mr. Gilman. So you no longer have any legalization program?
    Mr. Carr. I'm not aware of any legalization program 
although there are always those in the area that bring that to 
the surface. There are some drug needle exchange programs, I 
understand, still operating up there.
    Mr. Gilman. We had a similar problem in the Netherlands 
where they have a tolerance program, and it's not helped the 
situation.
    Mr. Carr. Every drug addict in Europe that goes to the 
Netherlands has a lot of tolerance, don't they? That's the 
thing, it's drawing crime, it's drawing people in of that 
milieu and that element of society.
    Mr. Gilman. The Netherlands is now fighting additional 
crime.
    I would like to address the entire panel: What's the purity 
level of the Colombian heroin that you're seeing in your 
cities? And also who are the wholesale heroin traffickers of 
Colombian heroin? Is it Dominicans, Colombians, Mexicans who 
are the major traffickers, if the panelists could address that?
    Mr. Jimenez. Felix Jimenez from--retired Drug Enforcement 
Administration Special Agent.
    When I was in charge of the office in New York, the DEA has 
a program called the Domestic Monitor Program. Basically what 
we do is, we go out to street corners and buy samples of heroin 
to determine the origin and to determine the price and the 
purity. I can tell you right now that in New York 90 percent of 
the heroin available is from a South American origin, and we're 
finding at the street level samples that come back at 90 
percent pure heroin.
    Mr. Gilman. Who are the retailers?
    Mr. Jimenez. Basically the organizations responsible at the 
street-level distribution of heroin in New York are Dominican 
trafficking organizations who are receiving this heroin from 
either Mexican trafficking organizations responsible for 
smuggling the heroin across the Mexican border, bringing that 
to New York and then passing the heroin to the Dominicans for 
street distribution.
    Mr. Gilman. Mr. Pelletier, are you finding similar 
problems?
    Mr. Pelletier. Yes, sir. It's basically Dominican 
distribution organizations selling the Colombian heroin.
    Mr. Gilman. What about the purity level?
    Mr. Pelletier. We routinely see it in the low 80's if not 
higher, but the routine is in the low 80's.
    Mr. Gilman. Mr. Marcocci.
    Mr. Marcocci. Yes, we're seeing heroin--our heroin is 
between 80 to 90 percent pure. Sometimes it has exceeded 90 
percent purity. Mostly it's inner city youths selling the 
heroin, the Colombian heroin. Individuals from our neighboring 
communities will travel to the larger city to bring it back.
    Mr. Gilman. Mr. Carr, who are your distributors in the 
Baltimore areas?
    Mr. Carr. The suppliers, the wholesalers, are Dominicans, 
Colombians, out of New York and Philadelphia; the street 
dealers are African Americans; the purity levels range from 
below 10 percent to up in the upper 90's.
    Mr. Gilman. And I'm sorry, Mr. X.
    Mr. X. That's OK. We don't do qualitative analysis within 
my department, so the purity levels I do not know. However, 
without fail, all the heroin that I've seized or bought, or 
that I know where it comes from, has come from Baltimore City, 
from the inner city.
    Mr. Gilman. Who are the distributors?
    Mr. X. Again, it's mostly younger persons.
    Mr. Gilman. But you don't know the origin?
    Mr. X. No, I don't.
    Mr. Gilman. And I suppose we have an obvious response to 
this question. If you had a choice of either fighting the 
menace in Colombia or on the streets of your cities, where do 
you think we should be focusing our efforts?
    Mr. Jimenez.
    Mr. Jimenez. Yes, sir. I think that we should be attacking 
the problem at the source area. I think that we need to 
concentrate in Colombia. We need to start a program, an 
eradication program, in Colombia to ensure that we can destroy 
those opium poppies before they are processed and converted 
into heroin hydrochloride and then smuggled into the United 
States for final consumption.
    Mr. Gilman. Thank you.
    Mr. Pelletier, what are your thoughts about that?
    Mr. Pelletier. Sir, I would agree that it should be 
attacked at the source. If your bathtub was overflowing, you 
wouldn't think of stopping the flow by taking a Dixie cup and 
picking the water up off of the floor; you'd turn the faucet 
off to stop the water. I think that speaks clearly of local law 
enforcement, with increased incarceration times and such, 
speaks nothing of getting it at the source. We continually put 
local Band Aids on a situation that needs to be taken care of 
at the source location.
    Mr. Gilman. Mr. Marcocci.
    Mr. Marcocci. Sir, I would indicate that it should be 
stopped at its place of origin. We in law enforcement would 
make every effort we could to stop it on the streets as best we 
could. However, there is too much heroin getting out on the 
streets today as we're trying, and too many lives are being 
affected by it.
    Mr. Gilman. Mr. Carr.
    Mr. Carr. I certainly think it should be attacked at the 
source, but I want to caution you by saying that drugs are here 
by invitation, not invasion. And it's going to take us a long 
time to get all the people that are addicted and involved in 
this back to being productive citizens.
    Mr. Gilman. We have to fight both demand and supply at the 
same time.
    Mr. X.
    Mr. X. I agree with Mr. Carr. I mean, we have to focus on 
its origin.
    However, you cannot forget the efforts that myself and 
other police officers are doing here on the street. It's going 
to be difficult to make it all disappear; even if we stop it at 
its source, it's still here. We still see it. We're still going 
to see it. And there are still addicts out there that are going 
to want to do that.
    Mr. Gilman. We have to do both simultaneously?
    Mr. X. That's my opinion, that's right.
    Mr. Gilman. What's the recovery rate after treatment for 
heroin addicts, Mr. Jimenez?
    Mr. Jimenez. Experts say they physically can recover in 2 
weeks to 3 weeks; however, the problem is the mental dependency 
that they have in the individual. That sometimes never goes 
away. Once they become a heroin addict, they are still, for 
life, a heroin addict.
    Mr. Gilman. Mr. Pelletier.
    Mr. Pelletier. That's my understanding as well. The 
addiction process with opiate abuse is lifelong.
    Mr. Gilman. Mr. Marcocci.
    Mr. Marcocci. Myself, along with my partner, know of no 
success cases through treatment programs.
    Mr. Gilman. Mr. Carr.
    Mr. Carr. I can tell you plenty of success treatments 
through treatment programs. One of the biggest treatments is 
drug substitution, methadone, which a lot of people argue is 
not that very satisfactory. But you can detox them in 3 to 4 
days; the drugs can be out of their system in several weeks. 
And a lot of the whether they will recidivate or not depends 
upon the environment they're in and their own mental attitude.
    Mr. Gilman. Mr. X.
    Mr. X. Unfortunately, it is a lifelong addiction from my 
experience and what I've seen on the streets. I have a lot of 
repeat customers, so to speak. We deal with the same people all 
the time.
    Mr. Gilman. I want to thank our local police officials for 
your outstanding work, and we're trying to find a better way of 
handling being this.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I want to thank all 
of the witnesses. It's been extremely helpful to hear your 
testimony.
    I sort of gravitate toward the view that Mr. Carr expressed 
lately, that there is some potential for treatment. And, Mr. 
Marcocci, you apparently haven't had very good success with 
that in your area, and that's disturbing; but I think there is 
potential for treatment, and there is some sort of success. But 
I think a large part of that--I'm sure Ms. Norton would agree 
with me, because I've heard her speak to that before--is the 
environment that people are left in after they've had the 
treatment. If you send them back to the same environment and 
same conditions, probably the recidivism rate is going to be 
sky high. So that's in large part of the problem.
    I want to ask you a question that goes back to some of the 
things that were in my opening statement. I have varying 
degrees of sympathy for people--for people all along the line 
here. I have more sympathy obviously for the peasant grower 
than I do for the producers and manufacturers than I do for the 
traffickers, than I do for the dealers; and versus them, I 
probably have more sympathy for the person who is a user-addict 
on the other end of that. So we go back and forth.
    What are your individual opinions of what impact it would 
have if we made a serious effort to go right at the money 
laundering issue and right at the precursor chemicals and 
things that go into the production and manufacture of these 
drug? If we really went after them, would that make your job 
easier in an appreciable way?
    Mr. Carr, I might go right to left here on this one.
    Mr. Carr. From my standpoint, I think that's where we have 
to go. We've been ignoring the money. I mean, that's what the 
money's about. We have to be concerned about not only the flow 
of drugs into the country but the huge sums of money that go 
out of the country, especially after September 11th, so it gave 
us the wake-up call.
    I mean, these funds, and I can--I'm not at liberty to cite 
specific cases, but we have cases under investigation right now 
that are tied to the funding of terrorist activities. It's drug 
money. It's drug money. It's going to al-Qaeda sources, and 
it's right in this area. And I'm sure that this area is not 
unusual compared to other areas of the United States where the 
terrorists we've tracked from September 11th, we knew where 
they were and we know that we have other elements of al-Qaeda 
and other radical groups in our country.
    So, yeah, it's a very important that we do that. We've all 
too often and for all too long ignored the money end of it 
because, quite frankly, if we're speaking directly, it wasn't 
politically correct. We're worried about someone's uncle who 
ran a used car lot, and we didn't want to get him indicted 
because his uncle is this or his cousin is that. I'm sorry; 
that's where it's taking place.
    If you look at the cash industry in this country, which is 
used cars, a lot of import-type businesses, and as of late, a 
lot of the banks, they're involved in this. DEA has had over 
the years some tremendous cases involving the banking industry. 
And, you know, the terrorists are going to use this, these 
methods, to get money out of the country and into their pockets 
and finance what they're doing.
    Mr. Tierney. Just to interject before I go to Mr. Marcocci, 
this stuff is fungible. If you eradicate in Colombia, as I said 
before, it's going to go to someplace else. If you eradicate in 
Latin America, it's going to go to Southeast Asia, you know, 
Southwest Asia, in or out. I mean, that's going to be a never-
ending cycle of chasing people around.
    But if you go to the money, if you go to the money, I think 
you might have a better prospect of doing that. And while you 
may have to do all the other things, too, you're really hitting 
them where it hurts, and some of Mr. Burton's question, what 
about the money, well, let's go get the money.
    Mr. Carr. There's no silver bullet. There's no one answer, 
but we have to do all these things.
    Mr. Tierney. Mr. Marcocci, is going after the money, in 
terms of money laundering, a major part of this?
    Mr. Marcocci. Yes, sir, it is.
    Mr. Tierney. In your opinion, have we been doing nearly 
enough of that?
    Mr. Marcocci. No, sir. Various dealers have told me right 
up front that they as addicted to the money as the user is to 
the drug itself.
    Mr. Tierney. Could you or Mr. Carr give us ideas of just 
how to start going about that would make an impact? This is not 
something that's a mystery to anybody, right? We could put 
together a plan to do this in fairly short order?
    Mr. Carr. Yes. We have a plan.
    Mr. Pelletier. No. I agree, any proactive type enforcement 
absolutely would make an impact. We can no longer just react, 
increasing someone's jail time; and the things that we do at a 
local level, those are Band Aids.
    I agree that any proactive type thing would absolutely 
increase the effectiveness. Unfortunately, in my State there's 
34 of us absolutely designed to handle investigations; 27 of 
those are federally funded. Without those types of funds, 
States like Maine that don't have a huge presence of Federal 
law enforcement and the locals just don't have the manpower or 
the resources.
    Mr. Tierney. I'm thinking more in line, Mr. Chairman, of 
something like; that is, why not have a national task force 
using our resources nationally to just take this and target 
this issue and go after it, that wouldn't tax your local police 
force? It would need your cooperation, obviously; and we could 
arrange for that, whatever, but this is a job that is large 
enough to be undertaken by the Drug Enforcement Administration, 
by the FBI.
    And Mr. Jimenez, why haven't the DEA and the FBI been more 
active in this area?
    Mr. Jimenez. I think that we are. We are working together 
with the Federal agencies as well, as the State and local.
    But in your initial question about money laundering I would 
like to be very careful on how I'm going to answer your 
question. But I would like to leave you with my thoughts as to 
what I think of our money laundering.
    The U.S. Government needs to be very, very careful in the 
utilization of that tool, because sometimes--and I have seen it 
in the past--money laundering investigations have turned into 
the U.S. Government being the financiers of the drug 
trafficking in Colombia. What I mean is that utilizing that 
tool to launder the money for the traffickers and following 
where the money goes from New York to offshore banks and--to go 
back to Colombia. What is happening is, we are putting in 
there, in the Colombian's drug trafficker cartels, their money 
and their profit; and they're producing more drugs to be sent 
to the United States.
    Mr. Tierney. I've got to stop you there, because I'm 
missing you. How is that happening?
    Mr. Jimenez. Well, the money, the profits that they're 
making in the United States are going back to Colombia to 
produce more drugs.
    Mr. Tierney. That's what we're trying to stop here. So if 
we stop the money laundering----
    Mr. Jimenez. That is not money laundering. What basically 
we're talking is seizing the money before it goes back to 
Colombia.
    But in money laundering you have to launder that money by 
taking the money in New York, depositing that money in an 
account. That money goes into an offshore account in a bank, 
and you follow that. And then, after that goes into another 
offshore bank and then probably ends up in a bank in Mexico, 
and then from Mexico it goes into Colombia. That's what is 
money laundering, OK?
    Mr. Tierney. OK.
    Mr. Jimenez. By doing that, we are putting back in the 
hands of the traffickers their profits.
    We can't allow that to happen, because then we are becoming 
the financiers of the drug trade.
    Mr. Tierney. Maybe I'm just being obtuse today; I'm sorry.
    But my idea, that would be what we're trying to stop, sir, 
am I right, trying to interrupt that from being a viable 
option?
    Mr. Jimenez. Money laundering investigation means that we 
are going to let the money go until it goes back to the owner, 
legal owner of that money. So normally the money, we follow it 
from where is the----
    Mr. Tierney. So you want to grab the money earlier?
    Mr. Jimenez. At that point we seize the money, goes to the 
source country or the owners or the producers of the cocaine, 
then it would be a success.
    Mr. Tierney. So you want to stop the money earlier and 
maybe take action against the people along the process?
    Mr. Jimenez. Absolutely. But in money laundering 
investigations, a lot of that money goes to the final 
destination.
    Mr. Tierney. So you would approach it differently, but with 
the same goal, going after the money--going after the money, 
stopping the people along that chain of the process and 
grabbing it as quickly as you could to take it out of that 
chain?
    Mr. Jimenez. Yes, sir, that would be a success.
    Mr. Tierney. Do we do any of that now?
    Mr. Jimenez. We're doing that in some cases. In other 
cases, we need to let the money go into the final destination 
so we can identify the people who are behind it in Colombia and 
in these countries.
    Mr. Tierney. The object, once that happens, is to shut 
those people down so people know there's a price to pay?
    Mr. Jimenez. That's the idea.
    Mr. Tierney. Mr. X, I don't want to leave you out. I know 
the chairman's got a quick trigger on the button here.
    Mr. X. I agree pretty much with what the panel has said. 
The drug problem has to be attacked in a multifaceted way. 
Taking money and profits and things purchased with drug money, 
at least on a local level, is a very important tool for us. We 
take money, we take cars, case houses, that kind of thing. It's 
important, I think, to--to look at the whole picture.
    Yes, that would be a very important tool, and it would take 
a lot of the profit away from the people that are dealing or 
importing drugs into the country. And in all honesty, at that 
level, at the importer and the dealer, that's going to be their 
main concern. They want that dollar. We take that from them, we 
take some of their incentive to do these things because of the 
penalties that they're looking at. They balanced the money, 
what jail time they could get, for example; so if you take 
that----
    Mr. Tierney. Closing your bank is going to get your 
attention, too, I would think.
    Mr. X. Absolutely. That way, they'll have nowhere to put 
that money they get; and it opens up the doors for other 
agencies to look at those money laundering issues and that kind 
of thing.
    Mr. Tierney. Thank you.
    Mr. Gilman. Thank you, Mr. Tierney.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. This is a very 
important hearing. I appreciate the work you've done on 
eradicating supply at the source, and the work of the chairman 
on this issue as well.
    When I hear the word ``heroin,'' I'm inclined to say, ``Not 
heroin again.'' At least it used to be expensive. The notion of 
cheap heroin is the most frightening drug notion I can think 
of. It is cheaper and purer at the same time.
    You know, we all remember the $100-a-day addicts, the $500-
a-day addicts. And at that time heroin, almost by itself, 
destroyed entire parts of cities. There are parts of--from New 
York to L.A.; there are parts of Philadelphia and Baltimore and 
New York you can drive through, and I'm talking about huge 
clumps of land that--where there used to be communities that 
aren't there any more; and if you trace back to the source, you 
will find heroin at the source.
    D.C. is not immune. Mr. Carr spoke about how the terrible 
problem in Baltimore, of course, edges over into D.C. We're 
seeing a spike in our crime once again. Heroin which became--as 
manufacturing jobs left the inner cities, filled the gap there 
and became the way in which people from low-income families 
made money. It destroyed family life in the great cities.
    In my own African American community, it has absolutely 
destroyed family life, where more than two-thirds of the 
children are born to single women, where young African American 
men have no models as their grandfathers did.
    Many, many reasons for this. Obviously, if there were a 
legitimate economy in those communities, it would be different. 
There is an illegitimate economy in those communities. And it 
is, of course, at its root, a drug economy.
    I am very much for eradication at its source. You will 
find, for example, in African American communities, that's the 
first thing they say. Go to the source, eradicate it at its 
source. We stand on record for that. But there is a balance 
here that requires effective law enforcement on the one hand 
and treatment at home on the other.
    Now, I don't know about decriminalization. I think you will 
find in the African American community that nobody wants to 
hear it. I don't know what legalization and decriminalization, 
I don't know how they meet--you know, if people are talking 
about decriminalizing a little marijuana stuff that--perhaps 
that's what they mean, although I have some problems with that. 
It's a gateway drug for many people in D.C.
    We have had big trumps of marijuana selling in this town. I 
don't know. All I know is that in the absence of opportunity in 
our community, decriminalizing heroin ain't going to help us. I 
can tell you that much. The folks--if folks can get what 
they're paying $4 bag for with no penalties attached to it--and 
you will see in some of my questions that I think some of the 
penalties, mandatory minimums and the like, have had the 
opposite effect that they were intended. So I'm certainly not 
speaking for putting people in jail as the alternative. I just 
know we haven't come upon what is the right balance.
    I have a question first of Mr. Carr about this study in 
Baltimore. Apparently it is the only full-scale study of a 
single study. It's called Steps to Success: Baltimore Alcohol 
and Drug Treatment Outcomes. It came before one of our 
subcommittees last February, but this study concluded that 
increased access to drug treatment on demand had resulted in 
significant reductions in drug and alcohol abuse and property 
crime, HIV risk behavior, and I want to know what you think of 
whether treatment on demand is available in Baltimore, whether 
you think it would help in bringing down crime and abuse. And 
I'd like, as the law enforcement officer, your view on 
treatment on that.
    Mr. Carr. Let me point out that we also fund a $5 million 
treatment program with HIDTA in the region, and a lot of it 
goes back to--and I think this is why my colleagues and other 
members of the committee say, well, gee, I don't know a 
treatment program that works. It's just like I don't know every 
law enforcement program that works either, but I can show you 
some that do work. We have one that does, and we measure it 
vis-a-vis a crime control measure, and that is recidivism 
rates. The big important thing that we look at with our 
clients--and I might say if I recall, I gave you a copy of the 
study--our average client is 33\1/2\ years of age, 10 arrests, 
6 convictions, and they're drug addicts. So we're not--we're 
dealing with a hard core group, the group that the--20 percent 
of the population that consumes--I'm sorry. The group of the 
population that consumes 20 percent of the drugs and commits 80 
percent of the crime. We used a coerced treatment model, and by 
coerced treatment, that means that they're under some form of 
legal--there's a legal hammer over their head to make sure they 
come, because we know that people that volunteer for treatment 
don't stay in treatment very long. We have drug testing, and we 
have imposed a series of graduated sanctions to make sure these 
people hold the line and stay in the program. And if they 
don't, they go back to jail.
    I mean, just let me add very quickly that the best 
treatment for drug dealers is incarceration. I mean, they're 
there to make money. Some of them become addicted. Some of them 
don't, but I think the best form of early intervention with 
them is incarceration. Slapping them on the wrist, letting them 
go back on the street over and over, as we've seen in 
Baltimore, only reinforces the negative. They become more 
violent. They become more belligerent, sometimes as a result of 
the use of drugs themselves, and that's not a good situation.
    Some drug treatment is very effective. Other drug treatment 
has shown to have no effect on the population. It depends how 
it's implemented, is the best answer I can give you.
    Ms. Norton. You may be aware that the Bureau of Prisons, 
pursuant, I would say, to funds that this Congress authorizes 
has both drug treatment and alcohol abuse treatment in prison. 
Now, of course when you get out of here from a State prison, 
you're not in the same shape.
    I do want to put on the record and I'd like to introduce 
into the record and I will--I don't have it with me now, the 
record of the--the agency--it's short--it's the agency that--in 
fact D.C. prisoners now go to Federal prisons, and there is an 
agency which handles them when they get out.
    As a result of that, the very program you describe has in 
fact reduced recidivism in this city. I mean, carrot and stick, 
not treatment that says, y'all come on and, you know, some of 
you sit down and we'll just talk to you and you won't be on 
drugs anymore. The others of you sit down and if you look like 
you're going to again, call up somebody. I don't know if 
anybody has ever liked ice cream a lot and then tried to wean 
themselves from it or tried to lose weight, but if you 
understand how hard it is to lose weight and stay off of fatty 
foods or give up ice cream, then perhaps you have some idea of 
what a truly addictive substance would be like. And I could not 
agree more. What it takes to in fact overcome it with all of 
these prescriptions out here is not well understood, but we do 
understand that this carrot and stick approach, Mr. Carr, that 
you describe----
    Mr. Gilman. Ms. Norton, did you want to put the report in 
the record?
    Ms. Norton. Yes, I do and I will submit it for the record.
    Mr. Gilman. Without objection. What is that report?
    Ms. Norton. It is a report of the reduction in crime--in 
recidivism by inmates who get out of the Bureau of Prisons and 
come home to the District of Columbia.
    Mr. Gilman. Without objection. And let me remind my 
colleagues that we have another panel that follows this. So 
please be brief.
    Ms. Norton. Could I just ask one more question, then?
    Mr. Gilman. Yes.
    Ms. Norton. It has to do with mandatory minimums. Our 
answer when the crack cocaine--it was about the time of the 
great increase in crack cocaine that we went into mandatory 
minimums. Since that time, the Drug Sentencing Commission and 
the Federal judges have all asked that this huge disparity 
between powdered cocaine and rock cocaine be eliminated, that 
it had produced hugely unfair effects, that you were getting 
the mules and the minor drug dealers, the people who launder, 
and the rest you don't get, even though they try to break them 
through the mules. I'd like to know where you stand on 
mandatory minimums and an effective way of controlling drugs.
    Mr. Gilman. Ms. Norton, would you agree to limit that to 
the former DEA official because of our time?
    Ms. Norton. Yes, Mr. Chairman.
    Mr. Gilman. Mr. Jimenez.
    Mr. Jimenez. I strongly support that the----
    Mr. Gilman. Would you press your mic button?
    Mr. Jimenez. I'm sorry. I strongly support that the minimum 
mandatory sentences be reviewed, especially on the heroin 
issue. To the fact that I know that we are looking up people in 
New York as well as in Philadelphia and other parts of the 
country, and 3 years later we are placing them back in the 
streets and they are more in control and they are more 
organized than ever. So basically it's a revolving door at this 
time. We are looking them up. They will maintain the control of 
the organization from jail, and when they come out they will 
have more money and more control than ever. So that must be 
reviewed, and the sooner the better.
    Mr. Gilman. Thank you, Mr. Jimenez, and I want to thank our 
panelists once again, Mr. Jimenez, Mr. Pelletier, Mr. Marcocci, 
Mr. Carr, Mr. X, for your excellent work out there fighting the 
battle. We appreciate your taking the time to be with us.
    I now excuse this panel and ask our Panel No. II to please 
take seats at the panel table.
    We want to welcome Panel No. II. Will the panelists in 
Panel No. II please take their seats. Barry Crane, Paul Simons, 
Roger Guevara. Let me swear them in first.
    We'll now hear testimony from Panel No. II, our ONDCP 
witness panel, including the Honorable Barry Crane, Paul Simons 
from State, and Roger Guevara from DEA. I'm going to ask our 
gentlemen, would you please stand, and would you raise your 
hands.
    [Witnesses sworn.]
    Mr. Gilman. Let the record indicate that the panelists have 
indicated that they agree to the oath.
    We're deeply disappointed that our Drug Czar, John Walters, 
was not able to join us this morning. Our committee, as you 
know, serves as both an oversight and legislative authorizing 
committee, and if the Drug Czar was here, he could have 
responded to questions that we have about Colombia heroin. Our 
committee did invite Mr. Walters with adequate notice back in 
October and we wrote to him as well regarding the Colombian 
heroin crisis that we're now facing and as yet regrettably 
we've received no response to that inquiry.
    We look forward to hearing from Mr. Walters' staff in how 
we can develop a badly needed heroin strategy and solutions to 
the crisis that we heard this first panel that was before us 
today of local police officers discussing.
    The Colombian heroin crisis is rapidly moving west and will 
soon consume our entire Nation. We don't want our Drug Czar to 
be AWOL with regard to this problem. Accordingly, I'm going--
this is my last hearing, regrettably, due to involuntary 
retirement due do redistricting, and I urge our committee and 
the new 108th Congress to stay intensely engaged in fighting 
this Colombian heroin crisis until ONDCP is able to effectively 
correct the problem. Our Drug Czar is going to have to take the 
lead in our war on drugs. I have a high regard for Mr. Walters, 
and we hope that he will assume the proper leadership in this 
issue.
    So now let's ask Mr. Crane if he would take the first lead 
on testimony. Please try to limit your response to 5 minutes. 
Mr. Crane.

     STATEMENTS OF BARRY CRANE, DEPUTY DIRECTOR FOR SUPPLY 
REDUCTION, OFFICE ON NATIONAL DRUG CONTROL POLICY; PAUL SIMONS, 
ACTING ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL NARCOTICS 
AND LAW ENFORCEMENT; AND ROGELIO GUEVARA, CHIEF OF OPERATIONS, 
                DRUG ENFORCEMENT ADMINISTRATION

    Mr. Crane. Thank you, Mr. Chairman.
    Mr. Gilman. And I might add that Mr. Crane is Deputy 
Director for Supply Reduction in the Office of National Drug 
Control Policy. Mr. Crane.
    Mr. Crane. Thank you, Mr. Chairman. It's indeed an honor to 
be here. These are respected colleagues here. And other members 
of the committee, it is a pleasure to meet with you today and 
discuss some of the major threats to the United States, 
especially heroin. Let me thank you for your longstanding and 
strong support for the fight against these drugs over the years 
and the social destruction they engender and the terrorism they 
subsidize.
    You have a copy of my prepared testimony, and I ask that my 
written statement be included in the record.
    In addition, I have some brief comments.
    Mr. Gilman. Without objection.
    [The prepared statement of Mr. Crane follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.046
    
    [GRAPHIC] [TIFF OMITTED] T4606.047
    
    [GRAPHIC] [TIFF OMITTED] T4606.048
    
    [GRAPHIC] [TIFF OMITTED] T4606.049
    
    [GRAPHIC] [TIFF OMITTED] T4606.050
    
    [GRAPHIC] [TIFF OMITTED] T4606.051
    
    [GRAPHIC] [TIFF OMITTED] T4606.052
    
    [GRAPHIC] [TIFF OMITTED] T4606.053
    
    [GRAPHIC] [TIFF OMITTED] T4606.054
    
    [GRAPHIC] [TIFF OMITTED] T4606.055
    
    [GRAPHIC] [TIFF OMITTED] T4606.056
    
    [GRAPHIC] [TIFF OMITTED] T4606.057
    
    [GRAPHIC] [TIFF OMITTED] T4606.058
    
    [GRAPHIC] [TIFF OMITTED] T4606.059
    
    Mr. Crane. First, let me say for the first time in many 
years, there's some real hope in Colombia. With the 
inauguration of President Uribe last August of this year, 
there's been much more support for U.S. counterdrug policy in 
Colombia, and we hope they've turned a corner. The challenge 
President Uribe faces are daunting. Over 30,000 armed 
narcoterrorists in this country threaten the safety and 
security of his people, kidnapping, assassination and massacre. 
These same terrorists provide sanctuary for the drug 
production, and trafficking supplies 90 percent of the cocaine 
and on the order of a third of the U.S. heroin market.
    The insecurity bred by these evils of drugs and terror have 
harmed Colombia's economy, driven much of the population out of 
their homes and threatened the democratic foundation of their 
institutions.
    But we are now in a new era in Colombia. President Uribe 
has very bravely stepped up to these numerous challenges facing 
his country. He has rallied his people to his side and against 
the traffickers and terrorists. He is mobilizing resources and 
political will. He is committed to reestablishing the rule of 
law in areas currently controlled by the illegal armed groups, 
providing security to the communities ravaged by terror and 
attacking this illegal drug industry. It's the fuel for the 
large instabilities in Colombia.
    In the short months of his administration, he has attained 
historic eradication records in coca and restored poppy 
eradication. He's sped up the seizure disposition of property 
belonging to the narcoterrorists. He's trying to restore the 
environmental conditions of the rain forests destroyed by the 
drug traffickers. He's established record rates of extradition 
of wanted criminals. He's begun to repatriate numbers of these 
child soldiers that were pressed in the service by the FARC, 
and he's increased substantially the funding for his military 
and police.
    The administration's drug control policy in Colombia is now 
built on a firm foundation of political will. Any progress in 
Colombia comes because the Colombian people will it, because 
their leaders have the courage to risk their lives and because 
the U.S. Congress has embraced this worthy cause, and we thank 
you for that over the years.
    We are thankful for the bipartisan support of Congress in 
the efforts to protect our communities from drugs by giving the 
Colombian people many of the tools they will need to take their 
country back from the narcoterrorists.
    President Bush has assured President Uribe of our support 
in helping defeat these narcoterrorists, and we are hoping this 
is really the beginning of a new day in Colombia. However, we 
can't take our eyes off the fact that the United States has a 
serious polydrug problem, involving marijuana, synthetic drugs, 
principally methamphetamine and ecstacy and cocaine and 
especially heroin, the last two which come to us from Colombia.
    We are under attack by international criminal organizations 
that traffic in drugs, arms and people. Cocaine still continues 
to be a serious problem, and there's no doubt that heroin is 
particularly visible in many of eastern cities.
    We want to reduce drug use in this country. Our objective 
in supply reduction is to cause one or more elements vital for 
drug production to collapse and structurally damage the entire 
drug industry. We need to treat drugs as a commodity, increase 
the cost of doing business by targeting its vulnerabilities in 
the marketplace that's transportation and that's profit-based.
    With regard to heroin, we have to look at the entire gamut 
of the entry and how it operates worldwide, what actions are 
necessary to break it and what actions have historically had 
little or no measurable impact. Our national drug control 
strategy employs a variety of tactics such as interdictional, 
organizational attack, alternative development, intelligence 
collection and sharing, in addition to aerial eradication, 
which we are continuing. We have not been able, though, to 
adequately assess how effective the aerial eradication on 
heroin flow to the United States has been. It does, however, 
exact a high opportunity cost, in that it uses up a substantial 
amount of eradication resources.
    The nature of the poppy plant operational difficulties 
posed by the mountainous regions in Colombia where the poppy is 
grown suggests that we are continuing study of this issue.
    Another important consideration in Colombia is that the 
cocaine industry supplies a very large amount of the income 
that supplies the terrorist organizations. We need to support 
Colombia's strong anti-coca campaign and not let it fail if we 
have to redirect assets. It is coca and the large amount of 
money that keeps the illegal armies in the field and denies 
security to Colombia.
    We have employed in Colombia promising alternative 
strategies against heroin that can produce good or excellent 
results and build on our present efforts. We've attacked the 
movement of heroin through airport inspections and using many 
new technologies and also expanded substantially the law 
enforcement activities.
    We'll continue to track our efforts, assess the 
effectiveness of this strategy, and we'll update Congress on 
our progress. I want to thank you again for this opportunity 
and for your steadfast support in this important struggle and 
for your part in the success of the current campaign being 
waged by President Uribe and the United States. We must all 
continue to back President Bush's commitment to support 
President Uribe and the brave people of Colombia. Thank you, 
sir.
    Mr. Gilman. Thank you, Mr. Crane.
    Our next witness is Mr. Simons from the State Department, 
and we're going to ask Mr. Simons if he would proceed with his 
testimony.
    Mr. Simons. Thank you, Mr. Chairman. Thank you for this 
opportunity to meet with you today to discuss U.S. heroin 
strategy in Colombia. I'd also like to associate myself with 
the congratulations that Mr. Crane offered for Mr. Gilman for 
your long-standing support for our Colombia programs and our 
counternarcotics objectives in Colombia.
    Mr. Gilman. Thank you. Let me note that Mr. Simons is 
Acting Assistant Secretary of State for International Narcotics 
and Law Enforcement. Please proceed.
    Mr. Simons. Thank you. I also plan to deliver a short oral 
statement and would ask that my longer written statement be 
entered into the record.
    Mr. Gilman. Without objection, we appreciate your brevity.
    [The prepared statement of Mr. Simons follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.060
    
    [GRAPHIC] [TIFF OMITTED] T4606.061
    
    [GRAPHIC] [TIFF OMITTED] T4606.062
    
    [GRAPHIC] [TIFF OMITTED] T4606.063
    
    [GRAPHIC] [TIFF OMITTED] T4606.064
    
    [GRAPHIC] [TIFF OMITTED] T4606.065
    
    Mr. Simons. U.S. counternarcotics programs in Colombia 
represent a response to one of the most important challenges we 
confront today. The issues raised by Colombia's production and 
U.S. importation of illicit drugs directly affect the well-
being of U.S. citizens, the survival of a democratic Colombia, 
the stability of the Andean region as it relates to fighting 
the twin nemesis of the illegal drug industry and terrorism.
    For Colombia confronting the intertwined dangers of 
counternarcotics and drug-supported terrorism is a vital 
element in President Uribe's broader initiative to reinforce 
the rule of law, build a healthier and stable economy and 
instill a greater respect for human rights.
    Mr. Chairman, attacking the heroin production problem in 
Colombia is an important U.S. counterdrug priority. Opium poppy 
cultivation in Colombia now totals approximately 6,500 hectares 
and generates a potential 4.3 metric tons of heroin, nearly all 
of this destined for the U.S. market. This could represent up 
to as much as one-third of the estimated 13 to 18 metric tons 
of heroin consumed annually in the United States.
    Our fight against heroin and other hard drugs is a 
coordinated multifaceted campaign, again as Mr. Crane has 
indicated, that includes interdiction elements, eradication 
elements, alternative development elements, as well as the law 
enforcement elements.
    State Department resources provided through INL are 
supporting all four elements of this strategy in cooperation 
with our 28-year program of partnership with the Colombian 
police.
    In the interdiction area, our financial and technical 
assistance to Colombia during the last few years under Plan 
Colombia is increasing the government of Colombia's capability 
to interdict heroin in its production and distribution phases.
    In fiscal year 2002, we directly budgeted $26 million in 
INL resources to the Colombian National Police, specifically 
for interdiction activities, and we also funded over $84 
million in CNP aviation and construction programs that 
supported their ability to conduct interdiction operations.
    In addition, the sizable portion of the $104 million that 
was provided in our resources for Colombian military 
counterdrug programs was also directed toward interdiction.
    INL is also financially supporting DEA's airport 
interdiction project, which intends to detect and capture hard 
drugs and traffickers using air transport, and for that purpose 
we've dedicated $1.5 million in fiscal year 2002 and a proposed 
$1.75 million in fiscal year 2003 funding.
    Reflecting the importance of this interdiction activity, 
Colombia has seized more than 670 kilograms of heroin and 
morphine in 2002, which is a significant portion of total 
potential production.
    With respect to aerial eradication, we are currently 
engaged in the second and most aggressive phase of this year's 
poppy spraying program, utilizing four T-65 spray aircraft in 
the southwestern part of the country.
    To date this year we have sprayed approximately 3,200 
hectares of poppy, and we hope to reach the goal of spraying 
5,000 hectares, which is our goal, by year-end.
    We recognize, Mr. Chairman, that the spray figures from 
2001 were considerably lower than 2000's total of 8,800 
hectares. This was due to a number of different factors. Slow 
delivery of the spray planes that were ordered under Plan 
Colombia, inability of security aircraft, shortages of pilots, 
some interruptions in the budget and bad weather, but most 
importantly in the first year of Plan Colombia both the U.S. 
Government and the Colombian Government did assign a priority 
to the attack against coca in fiscal year 2001.
    This year I am pleased to report that with the support of 
Congress and considerable effort and work on the part of both 
the Colombian police as well as U.S. Government officials from 
different agencies, we have significantly increased our 
capability to spray. We now have a spray plane fleet which is 
capable of carrying out serious eradication programs for both 
coca, as well as opium poppy, and we hope to see evidence of 
that both in the 2002 numbers, as well as in what we can do 
next year.
    Of special note is the addition of three additional air 
tractor, AT-802, spray planes in our fleet this year, and the 
upcoming delivery of another five air tractors in the first 
half of next year. These aircraft, which have a greater load 
capacity, can effectively be deployed for either coca or opium 
spray operation. Initially we plan to use the air tractors for 
coca spraying, but this will have the important fact of freeing 
up the traditional T-65 aircraft, of which we should have six 
by the middle of next year for a dedicated effort to poppy 
spraying.
    We also have sufficient helicopters for reconnaissance 
security to support our spraying missions, as well as to use 
these helicopters for interdiction and air support.
    Until this year--and, Mr. Chairman, this has largely to do 
with the natural lags in the delivery of the Plan Colombia 
equipment--we did not have sufficient assets to carry out both 
programs to the degree that we would have wanted.
    We've also made a major effort this year to enhance the 
training of pilots who could spray in the high altitude poppy 
environment that we find in Colombia.
    We have already trained nine pilots specifically under New 
Mexico conditions to operate the air tractors in poppy-type 
environments. An additional six pilots should be trained in the 
first half of 2003. This means that by the middle of 2003, a 
complete contingent of 16 mountain-trained air tractor pilots 
will be ready in time to match the incremental delivery of this 
equipment to Colombia.
    So for 2002 we plan to achieve our goal of 5,000 hectares 
of opium poppy spraying. For 2003, our goal is to spray all 
remaining Colombian poppy, up to 10,000 hectares, along with 
the remaining Colombian coca, which may total as much as 
200,000 hectares.
    I would also like to remind the committee that full funding 
of our fiscal year 2003 request for Colombia will be essential 
in order for us to achieve these goals.
    Finally, let me say one word about alternative development 
in Colombia. Alternative development is an important pillar of 
our strategy to counter the drug trade in Colombia, and not 
only in the coca areas but also in the poppy areas. USAID is 
undertaking major efforts and alternative development, which 
are detailed in my statement. Thank you, Mr. Chairman.
    Mr. Gilman. Thank you, Mr. Simons.
    Our next witness is Roger Guevara, Chief of Operations of 
DEA. Mr. Guevara, you may proceed.
    Mr. Guevara. Thank you, sir. Mr. Chairman, distinguished 
members of this committee, I'm very pleased to be here before 
you today. Before I begin, I would like to thank you and the 
committee on behalf of Administrator Hutchinson and the men and 
women of DEA for your continued support of both our 
international and domestic efforts to combat heroin and other 
drug trafficking organizations.
    Mr. Gilman. And please convey to Mr. Hutchinson that we 
regret that he's soon to leave our battlefield to go on to a 
bigger battlefield, and we hope we're going to have a good 
alternative chairman and replacement. So please wish him well 
in his new endeavors. Please proceed.
    Mr. Guevara. I'll convey your good wishes, sir.
    High purity, low-price Colombian heroin today dominates the 
heroin market in the eastern United States. Although abuse of 
cocaine and marijuana are far more prevalent than heroin, its 
highly addictive nature, increased potency and availability 
make it one of the more significant challenges we face.
    The increased availability of Colombian heroin over the 
last decade has led to higher levels of heroin use nationwide. 
The number of heroin users in the United States has increased 
substantially from an estimated hard core heroin user 
population of 630,000 in 1992 to almost 1 million regular users 
today. This country has an additional half million occasional 
heroin users. Today they consume 13 to 18 metric tons of heroin 
each year. Between 1996 and 1999, heroin was the third most 
frequently reported drug in emergency department visits, and 
the second behind cocaine involved in drug-related deaths.
    According to the 2001 National Household Survey on Drug 
Abuse, more than 3 million Americans age 12 or older had tried 
heroin at least once. These statistics place heroin among the 
top three drugs of abuse in the country.
    In the 1980's and 1990's, Southeast and Southwest Asian 
traffickers dominated the heroin trade. The majority of heroin 
entering the market originated in Burma and Afghanistan. Today 
Colombian traffickers have effectively seized control of the 
East Coast market.
    In 2001, under DEA's heroin signature program, 
approximately 56 percent of the heroin seized in the United 
States by Federal authorities and analyzed by DEA was from 
Colombia as opposed to a combined 14 percent from Asia and 30 
percent from Mexico. Although these results should not be 
equated with market share, they are good indicators of relative 
availability over time.
    Independent trafficking groups who operate outside the 
control of the major cocaine organizations dominate the 
Colombian drug trade. In the early 1990's, the bulk of the 
South American heroin smuggled into the United States was 
transported by couriers on direct commercial flights from 
Colombia to the United States. Since the mid-1990's, Colombian 
heroin traffickers have diversified their methods of operation, 
smuggling heroin into the United States through countries in 
South America, Central America and the Caribbean and sending 
bulk shipments of heroin to the United States using cargo 
planes, container ships, and go-fast vessels.
    Seizures of 15 to 30 kilograms of heroin are now common, 
and seizures of up to 50 kilograms of heroin occur but less 
frequently. Uncorroborated DEA intelligence has implicated 
Colombia's terrorist organizations, the FARC, ELN and AUC in 
the Colombian heroin trade. Specifically, these groups are 
suspected of charging a tax fee from heroin traffickers who 
obtain heroin from areas under their control. These groups are 
also suspected of taxing farmers who cultivate poppy plants in 
areas they control.
    While on the subject of terrorist organizations involving 
the Colombian heroin trade, I would like to repeat something 
Administrator Hutchinson has stated repeatedly, namely that the 
fight against international drug trafficking organizations is a 
crucial element in conducting the war on terror and one we are 
committed to fighting.
    With the full backing of the administration and support of 
Congress, DEA and the Colombian National Police have created a 
heroin task force to coordinate Colombian heroin 
investigations. At full strength, the task force will be 
comprised of 40 officers in five locations throughout Colombia. 
To assist with this effort, DEA has dedicated additional 
manpower resources to Colombia. Effective multinational 
enforcement initiatives led by DEA have already resulted in 
significant seizures of heroin outside of the U.S. borders.
    Since 1997, heroin seizures have increased by 1,100 percent 
in Venezuela, 1,000 in Ecuador, 500 percent in Panama and 300 
percent in Colombia. The regional enforcement initiative known 
as Operation LATA Forma was launched in April 2001 and resulted 
in the seizure of 144 kilograms of heroin and the arrest of 85 
defendants in Colombia, Chile, Peru, Venezuela and Ecuador. 
Based on this success, participating countries have continued 
the operation on a permanent basis.
    DEA and the CNP initiated Operation Matador to target a 
heroin trafficking organization responsible for transporting 
multikilogram quantities of heroin from Bogota to the United 
States. The organization utilized couriers to transport heroin 
over land from Bogota to border towns located in Venezuela and 
Ecuador and then ship the heroin in commercial planes to Mexico 
City, Mexico and subsequently to McAllen, Texas. In November 
2001, this investigation was concluded with the arrest of 26 
key members of this organization and the seizure of 38 
kilograms of heroin. Additionally, DEA offices in Texas, New 
York, New Jersey and Rhode Island arrested 28 defendants and 
seized an additional 38 kilograms of heroin.
    The United States, Colombia and the Andean region countries 
face dramatic new challenges in combatting heroin trafficking 
groups. DEA will continue to invest considerable time and 
resources in the close partnership we have developed with our 
counterparts in the region.
    I thank the committee again for this opportunity to appear 
before you today, and we'd be glad to answer any questions.
    [The prepared statement of Mr. Guevara follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.066
    
    [GRAPHIC] [TIFF OMITTED] T4606.067
    
    [GRAPHIC] [TIFF OMITTED] T4606.068
    
    [GRAPHIC] [TIFF OMITTED] T4606.069
    
    [GRAPHIC] [TIFF OMITTED] T4606.070
    
    [GRAPHIC] [TIFF OMITTED] T4606.071
    
    [GRAPHIC] [TIFF OMITTED] T4606.072
    
    [GRAPHIC] [TIFF OMITTED] T4606.073
    
    [GRAPHIC] [TIFF OMITTED] T4606.074
    
    [GRAPHIC] [TIFF OMITTED] T4606.075
    
    Mr. Gilman. Thank you, Mr. Guevara.
    Mr. Simons, allow me to address some questions to you. You 
mentioned that you're going to be able to eliminate 5,000 by 
the end of this year, 5,000 hectares of opium. Is that correct?
    Mr. Simons. Our goal for this year is 5,000. Currently 
we're at about 3200.
    Mr. Gilman. Well, how are you going to do it in just the 
few remaining days?
    Mr. Simons. We don't have too many days left, but we are 
going to see how close we can get to the 5,000 figure----
    Mr. Gilman. How close do you expect to get to it? 
Realistically without putting figures----
    Mr. Simons. I think we'll get as close as we can, Mr. 
Chairman.
    Mr. Gilman. Well, that's an obvious answer.
    I note that in the year 2000 under General Serrano, some 
9,200 hectares were eliminated in a 9-month period, and then in 
the year 2001 only 1,800 hectares of opium were eradicated. And 
now we're only up to 3,000, a total of 4,800 hectares in a 2-
year period, 2001 and 2002. How do you account for that 
reduction in this important crop that's affecting our whole 
Nation?
    Mr. Simons. Mr. Chairman, I think the main intervening 
event during that period was the passage of the Plan Colombia 
supplemental funding in the middle of the year 2000 and the 
major shift that took place at that time in which the 
government of Colombia, supported by our government, devoted 
substantial energies to spraying coca during the year 2001 at a 
time in which the new spray aircraft that were funded--were 
being funded on Plan Colombia had not yet arrived. So if you 
look at the total spray figures for the year 2001, we actually 
were able to boost the coca spraying from about 53,000 hectares 
up to 94,000. So clearly, there was a major focus----
    Mr. Gilman. Let me interrupt you. What was the boost?
    Mr. Simons. It was about 40,000 hectares in the coca side.
    Mr. Gilman. Yeah, but what----
    Mr. Simons. Clearly, there a major focus----
    Mr. Gilman. What happened to the opium side?
    Mr. Simons. Well, the opium side obviously went down.
    Mr. Gilman. Why? We want to know why it went down. Is it 
true that Ambassador Patterson notified our committee that in 
January 2001 she decided to stop spraying opium in order to 
pursue an historic opportunity to spray a record number of 
hectares of coca? Is that an accurate statement?
    Mr. Simons. My understanding, Mr. Chairman, is that the 
decision for the year 2001, the recommendation on the part of 
both the Colombians, which was supported by the United States, 
was to focus our energies on coca, and for that reason there 
was a major increase in the coca spraying.
    Mr. Gilman. Who made that decision?
    Mr. Simons. I believe that was a decision in which the 
Colombian officials in consultation with the U.S. officials 
were involved.
    Mr. Gilman. Is Ambassador Patterson here? I see she is. 
Would Ambassador Patterson come up to the desk, please?
    Ambassador Patterson, did you make that decision back in 
January 2001 to stop spraying opium?
    Ambassador Patterson. Mr. Chairman, it's a pleasure to be 
here. Let me first say that.
    Mr. Gilman. We welcome you. Thank you for coming.
    Ambassador Patterson. Mr. Chairman, as my colleague from 
the State Department has said, that was a joint decision, but 
certainly it was a decision that we made, yes, sir.
    Mr. Gilman. And was that directed by State in Washington?
    Ambassador Patterson. Frankly, I can't recall, but there 
was vast support within the Colombian government and within the 
State Department, and I believe other agencies in the U.S. 
Government, to focus all our resources on coca eradication.
    Mr. Gilman. So there was no objection to stop opium 
eradication back in Colombia in January 2001?
    Ambassador Patterson. Mr. Chairman, we continued opium 
poppy eradication continually throughout the year, and we're 
certainly trying to recover now, but we did have a--and we were 
very successful in coca eradication.
    Mr. Gilman. Yeah. I don't question that, but what I'm 
concerned about, what we're concerned about in this committee, 
is that only 1,800 hectares of opium were eradicated in the 
year 2001, a drop from 9,200 in the prior year, and it resulted 
in a massive increase in the export of opium to the United 
States.
    Ambassador Patterson. Mr. Chairman, we were also facing a 
crisis in coca. It was flooding cheap coca. It was increasing 
at a rate of something like 20 and 30 percent a year.
    Mr. Gilman. But Madam Ambassador, isn't most of the coca 
production going to the European continent and the vast 
majority of the illicit drugs coming from Colombia are opium 
drugs at the present time?
    Ambassador Patterson. Our estimates are somewhere between 
half and a third of the coca cultivation, coca crop goes to 
Europe but still a good half of it comes here.
    Mr. Gilman. But we have about 60 percent of the opium crop 
coming to the United States, do we not?
    Ambassador Patterson. Yes, sir.
    Mr. Gilman. In light of what we heard from the local police 
this morning and the fact that ONDCP itself reports that heroin 
is the most addictive drug by nearly twice that of cocaine, 
was--Mr. Simons, I'm asking you--was this decision to stop 
spraying opium an appropriate decision?
    Mr. Simons. Mr. Chairman, I think it's inappropriate to 
refer to a decision to stop spraying opium. As the Ambassador 
has indicated, the greater focus was placed on coca spraying. 
There was still spraying of opium that went on during the year.
    Mr. Gilman. But it was minor and intermittent compared to 
what had been done previously. Isn't that correct?
    Mr. Simons. Certainly there was a decline, but as I pointed 
out in my testimony----
    Mr. Gilman. A major decline, 1,800 hectares in 2001 
compared to 9,200 hectares in the year 2000.
    Mr. Simons. That's correct.
    Mr. Gilman. 75 percent reduction.
    Mr. Simons. That's correct, but we are making--we are 
beginning to make that up, and we expect to make major inroads 
next year.
    Mr. Gilman. You've only made it up to 3,000 this year. It's 
still a 60--one-third of what was done in the year 2000, and--
--
    Mr. Simons. That's correct.
    Mr. Gilman. You heard the local police expressing their 
concern of the widespread opium addiction problem in our 
country. Something is wrong at the top here in your strategy.
    Mr. Simons. That's correct, Mr. Chairman, but once again, 
if I could refer back to the observation I made before, which 
was we were able to achieve a very substantial increase in coca 
eradication this year, we'll be achieving up to 130,000 
hectares.
    Mr. Gilman. Allow me to interrupt you. We're not concerned 
right now about the coca crop, which most of it is going to 
Europe. We're concerned about this vast supply of heroin that's 
coming to our country, and yet you're not doing enough to make 
the prior 2000 volume of 9,200 hectares that were sprayed only 
because you stopped eradicating, and I don't understand that 
rationale. I'd like you to explain that.
    Mr. Simons. I think the issue here is it was a resource 
constraint. We had additional spray planes coming on board, but 
they had not arrived. At the same time there was a political--
--
    Mr. Gilman. Mr. Simons, General Serrano had the same amount 
of aircraft. He sprayed 9,200 hectares of opium with that 
amount of aircraft. So that's not an excuse that's rationally 
correct.
    We've heard all kinds of excuses from the State, like bad 
weather, lack of spray planes, the crop is hard to find, and it 
goes on and on why opium eradication fell off, but the 
Colombian police in less than three-quarters of a year in the 
year 2000 nearly eliminated 80, 90 percent of the opium crop. 
So these excuses are hollow to our ears, and what we want to 
know is what you're doing now so eliminate the crop. We were 
told that in 2 or 3 months that crop could be eliminated 
completely if properly addressed.
    Mr. Simons. Mr. Chairman, I would just go back with respect 
to the year 2000 and note that we were able to spray with the 
Colombians 53,000 hectares of coca that year, in addition to 
the 8,000----
    Mr. Gilman. You keep going back to the coca crop. I'm 
talking now about our crisis in opium.
    Mr. Simons. Well, there were difficult tradeoffs to be 
made, Mr. Chairman.
    Mr. Gilman. Why did we make that tradeoff when we have such 
a problem with opium confronting our country?
    Mr. Simons. Mr. Chairman, I would just go back to your 
opening statement with which I agreed, which is that we ought 
to be able to--I believe you said walk and chew gum at the same 
time. I believe in the year 2003 when the equipment that you 
provided under the supplemental is made available, we will be 
able to accomplish both of our objectives.
    Mr. Gilman. Well, you've had good equipment in the year 
2002 and you've only done 3,000 hectares of opium spraying. It 
seems to me there's a lot lacking here, and I hope you would 
take another look at all of this. And wasn't it Ambassador 
Patterson who had to make that--that came out of Washington. 
And I think you made some wrong decisions, and you heard the 
local police today. They don't know what to do with this major 
flowing of heroin that's coming out of Colombia. I hope you're 
going to take another look at the direction in which you're 
going.
    Mr. Guevara, do you have any comments you'd like to make?
    Mr. Guevara. No, sir. I've already indicated the level of 
the problem as DEA sees it. So we can do more with the 
resources that we have. We must continue to keep up the good 
fight.
    Mr. Gilman. And if we had better eradication, I assume your 
fight would be eased quite a bit?
    Mr. Guevara. Well, I could not certainly dispute that. If 
we can attack it at the source, I think that we're all in 
agreement that is where we could have the biggest----
    Mr. Gilman. Was your agency conferred with with regard to 
cessation of opium eradication at the time they beefed up the 
coca eradication? Were you consulted?
    Mr. Guevara. Sir, I can't answer that specifically, but I 
can assure you that the DEA in country in Bogota who report to 
the Ambassador certainly are in day-to-day coordination on all 
matters with regard to the drug issue in Colombia.
    Mr. Gilman. Well, I'm asking was DEA here in Washington 
consulted with regard to the change in policy of concentrating 
on coca eradication as compared to opium eradication? Do you 
know whether that----
    Mr. Guevara. I do not know the answer to that. I'll 
certainly look into it and see whether my predecessor had such 
conversations.
    Mr. Gilman. I would appreciate it if you could advise this 
committee in writing after you've consulted with your people 
whether DEA was consulted.
    Mr. Crane, do you have any comments?
    Mr. Crane. No, sir. What we have to find is an effective 
way. However, I look at this problem as a large problem. 
Wherever the heroin is coming from, we have to stop it and----
    Mr. Gilman. You're in charge of supply reduction?
    Mr. Crane. Yes, sir.
    Mr. Gilman. Were you consulted with the change of attitude 
about eradicating coca as compared to eradicating heroin?
    Mr. Crane. It would be my view I should get back to you 
since I've been there, what, 6 months and check the record.
    Mr. Gilman. Would you do that and notify us in writing 
whether you were consulted?
    Mr. Crane. Yes.
    Mr. Gilman. Thank you, and I'm about to turn the Chair over 
to Mr. Mica, who's been an outstanding warrior in our war 
against drugs. And I regret that I have to go on to another 
meeting. And I thank our panelists for being here and welcome 
Ambassador Patterson. We appreciate your hospitality when we 
were there not too long ago.
    Mr. Mica.
    Mr. Mica [presiding]. I thank our panelists again for their 
cooperation today and thank Mr. Gilman for his untiring efforts 
to deal with this narcotics problem. I think when I was a 
staffer back in the Senate in the early 1980's starting on the 
problem, he had already provided leadership in the Congress on 
the issue, and we're going to miss his efforts. He certainly 
has been one of the warriors to address this very serious 
problem. And I think y'all join me in wishing him well. We'll 
miss him, both on the committee and in Congress.
    The testimony today has provided us an update on, again, a 
very serious problem, and that's the availability of heroin and 
very deadly heroin coming in in unprecedented amounts from 
Colombia. We know the source, and we have the signature 
programs that identify exactly where this stuff is coming from. 
And unfortunately, its effects--we've also heard the testimony 
with regard to the deaths and destruction of lives, addiction 
it's causing.
    There is some conflict in some of the testimony we've heard 
today, and I have a copy of an estimation of heroin 
availability in 1996 to 2000, which was published by the 
Executive Office of the President Office of National Drug 
Control Policy.
    Let me state and quote from that report. It says, ``An 
analysis of retail heroin signature data indicates that South 
American heroin dominates the U.S. heroin market, particularly 
in the eastern United States, accounting for more than 67 
percent of the heroin consumed in the United States.''
    And we also have a copy of the official Country Handbook on 
Colombia, put out by the Department of Defense, dated October 
2001, and it states on page 60 that ``65 percent of the heroin 
found in the United States is of Colombian origin.''
    Are these figures correct, Mr. Crane?
    Mr. Crane. ONDCP did put the study out making the 
assumption that the signature program gave the balance. 
However, subsequent to that Drug Enforcement did a very 
detailed study, and there's been a reevaluation of the--the 
official estimate now is quite a bit less, so when that study 
was published it was based on assuming that the signature data 
gave the----
    Mr. Mica. Can you turn the mic on?
    Mr. Crane. Oh, I'm sorry, I apologize. I thought it was on. 
Let me begin again. When that study was published the 
assumption underlying it was that the signature data gave an 
adequate estimate of the production percentages. However, 
subsequent research later concluded looking at where the fields 
are and the new breakthrough analysis by Drug Enforcement 
suggested that was an error. So the most recent studies, 
official estimates that we've put in are the current ones of 
about four metric tons available based on the amount of fields 
and the production. And they also looked in some detail how 
many harvests and so on. So the newer data is accurate, and 
these studies are outdated by newer research.
    Mr. Mica. Who does the signature program? Is that you, Mr. 
Guevara?
    Mr. Guevara. That is a study that's led by DEA, and it's 
conducted in concert with other government agencies. That study 
has in fact been conducted, and we identify as Operation 
Breakthrough.
    Mr. Mica. Our staff has been told that there's a different 
figure here that is only about a third of heroin production 
coming out of Colombia, and you've just heard Mr. Crane say 
that number--the numbers in these documents and the documents I 
quoted are incorrect. What do you find?
    Mr. Guevara. One of the results of the study was that the 
opium poppy fields were actually only capable of producing two 
times a year versus the previous belief that it was three and 
four times a year.
    Mr. Mica. Well, this is information given to our 
congressional staff and Members in October, and it says 65 
percent of the heroin in the United States is from Colombia. 
I'm not sure if this has a date on it. Given in October, but 
what date--do you know if that would hold true, or is that 
information incorrect also?
    Mr. Guevara. I would have to consider what date 
specifically we're looking at. Our best information, sir----
    Mr. Mica. Well, what's the latest signature evidence--and 
signature should be pretty accurate, because it's taken from, I 
guess, a chemical DNA analysis. I've been told you could 
pinpoint it practically to the fields where the stuff is being 
produced. What's the latest data that DEA has produced on the 
percentage coming from Colombia?
    Mr. Guevara. I do not have that at my fingertips at the 
moment, but again, the study indicates that there's----
    Mr. Mica. Well, everything we have from these reports and 
executive summary, the information provided to staff and 
Members as recently as October, just a month or two ago, 
indicates a higher percentage than we're hearing testimony 
today. Is there something we're missing?
    Mr. Guevara. I understand, sir, that the heroin signature 
program from DEA has--that issue--considers 56 percent to be 
the----
    Mr. Mica. What was the time of that analysis?
    Mr. Guevara. I believe this to be the most current 
estimate.
    Mr. Mica. Would that be 2000--2002, the latest information 
you have?
    Mr. Guevara. That's correct.
    Mr. Mica. So that's a little bit different than a third 
that you've heard Mr. Crane and others testify to or comment on 
today.
    Mr. Guevara. I can only go by the best estimates, and I 
believe that to be 56 percent.
    Mr. Mica. One of the disturbing things I found in the 
analysis--and I've been following this for a while. You said in 
the 56?
    Mr. Guevara. Well, if I may be allowed to consult this 
question for clarification, please.
    Mr. Mica. Well, signature analysis would give us very 
specific data as to that which--that's based on seizures and 
where that drug is coming from.
    Do we have a--I want to try to proceed with the hearing. 
Mr. Guevara?
    Mr. Guevara. Sir, as I understand it, of all the seizures 
made that DEA has analyzed----
    Mr. Mica. As of what date?
    Mr. Guevara. As of 2002, 56 percent of all the heroin that 
was analyzed by the DEA under the heroin signature program, of 
that amount 56 percent of it was Colombian.
    Mr. Mica. And that's what I have from previous documents 
provided by DEA. One of the differences I see is an increase in 
Mexican heroin production and also identification of Mexican 
heroin that's seized in the United States, and that's up to 30 
percent?
    Mr. Guevara. That was correct.
    Mr. Mica. Well, again, Mr. Simons, Mr. Crane, these figures 
do differ from what you provided us today in testimony and also 
what you're indicating. Now, maybe you know something that we 
don't know about, a trend that's taking place right now. I'd 
certainly like to know about that. What's your explanation of 
the difference? Mr. Crane.
    Mr. Crane. The official estimates of supply come from 
surveillance of the fields in both Mexico and Colombia, and 
that's done through intelligence means. Then--so that's how we 
estimate how many fields there are, and then there's also a 
study of how many times they're harvested and how much--what is 
the yield of opium to heroin.
    Mr. Mica. With the actual--the official drugs that are 
reaching the United States we know pretty definitely from this 
DEA analysis where they came from. That's correct?
    Mr. Crane. Well, let me comment. The signature data, for 
example, is based on seizures, and there were a lot of seizure 
increases after September 11th because we've increased 
security. But the seizures don't necessarily represent an 
unbiased sample of the country. So what they would provide 
basically is an estimate of, you know, what transportation 
modes they were seized off and so on. So they don't necessarily 
represent a production estimate. The one thing about as best I 
understand when I came to the job and I looked at this is the 
signature program can tell you the chemical process used to 
produce it. So, for example, if Mexican heroin was processed 
with the Colombian process, we would identify it as South 
America. So it depends on the type of process. So anyway, 
that's the best of my understanding at this time and why 
there's some of these differences.
    Mr. Mica. Well, whether we have some of the differences or 
not, we're seeing dramatic increases in heroin. We're seeing 
dramatic reduction in the eradication program. I mean, you've--
everyone has testified to that. Our job is to react to what's 
taking place, and we have the equivalent of September 11th 
every day--I'm sorry, every year in the United States now on an 
annual basis taking place with drug overdose deaths and many of 
them attributed to increase in heroin activity. And somehow--
and you all represent the leadership at least in the 
administration on these issues. Somehow you've got to have the 
policy respond to the threat, and obviously it isn't doing it 
whether--and it's now unfortunately under our watch with this 
new administration.
    So the next question would be we've identified that there 
is a problem. Everyone identifies that heroin is on the 
increase. Everyone agrees that the eradication program has 
fallen short, and maybe it was to address coca, but we've got 
that problem now, and we need a balance. One of the things 
that's been mentioned here is a lack of resources to go after 
both coca and heroin poppy production. I'm also told it's going 
to be the middle of 2003 to shift--now, I think 2003 it was 
indicated it would take that long to train additional pilots, 
and that's to have your maximum capacity do the job. In the 
meantime is there some reshifting of resources to increase the 
eradication of the poppy heroin problem?
    Mr. Simons.
    Mr. Simons. Thank you. Yes, Mr. Chairman, as I indicated in 
my opening statement, our goal is to spray the entire Colombian 
opium poppy crop during calendar 2003 up to 10,000 hectares. We 
have not yet received the analysis, as Mr. Crane pointed out, 
from the Intelligence Community which will give us some idea as 
to the size of that crop. We should receive that in the next 
couple of months. But once we receive that we will map out with 
the Colombian National Police a game plan which will cover 
calendar 2003, which will look at our goal of spraying the 
entire poppy crop as well as the entire coca crop.
    Mr. Mica. OK. Now, were all the funds that were to be 
expended on eradication through 2002, through the end of 
fiscal--the past fiscal year expended, and expended on the 
eradication program?
    Mr. Simons. We have obligated all our fiscal year 2002 
funding that was devoted to the eradication program, yes.
    Mr. Mica. Well, OK.
    Mr. Simons. Some of that will carry over.
    Mr. Mica. OK. My question--let's go back. You've obligated, 
so what--how much of the obligation is a carryover from 2002 
fiscal year that ended in the end of September?
    Mr. Simons. We--at the very end of 2002 there were various 
holds placed on our eradication moneys during fiscal year 2002. 
We actually did not have the availability of those funds.
    Mr. Mica. And who placed the holds?
    Mr. Simons. By the Senate side. So we did not actually 
obtain a release of those funds until the very end of the 
fiscal year. So we are right now working----
    Mr. Mica. And when was that?
    Mr. Simons. I'm sorry?
    Mr. Mica. When was that?
    Mr. Simons. The last week of September.
    Mr. Mica. The last week of September.
    Mr. Simons. Correct.
    Mr. Mica. And how much money was held by the Senate?
    Mr. Simons. $17 million, Mr. Chairman.
    Mr. Mica. What percentage of that was your total plan?
    Mr. Simons. That was the entire budget for the chemicals 
that were used in the program.
    Mr. Mica. So you had no money for chemicals?
    Mr. Simons. We are now utilizing the fiscal year 2002 
moneys for the chemical program, but we don't have our budget 
yet for fiscal year 2003. We're operating off a continuing 
resolution.
    Mr. Mica. All right. So $17 million, and you carefully 
term--in your testimony you said that you obligated--that's all 
obligated and that's all for chemicals?
    Mr. Simons. That's correct.
    Mr. Mica. And if you have the chemicals, what about the 
aircraft and other operational spare parts and things that are 
needed?
    Mr. Simons. Well we're still working off some 2002 moneys. 
But we will need--I can get back to you on the specific numbers 
on that.
    Mr. Mica. What percentage? 50 percent, 20 percent? Was part 
of that held up, too?
    Mr. Simons. No, it was not, just chemicals.
    Mr. Mica. OK. And well--again, I'm trying to get a picture 
of where we are, what we haven't done with money that was 
appropriated and whether it was--and some of this may 
justifiably be--well, that's not justifiable, but it may not be 
your responsibility. What I'm trying to do is pinpoint 
responsibility, why things didn't get done and where 
responsibility lies.
    So let's go back to equipment, and tell me what you have 
left over, spare parts, other things it would take to do the 
job. And then when you finish with that, I was told it took 
about a year to do one of the contracts, and I want an 
explanation why it takes so long to contract. I don't have the 
specific information on the 1-year contract. But let's start 
first with what's left over now in addition to the chemical 
fund disbursement delay.
    Mr. Simons. Essentially, Mr. Chairman, the resource issue 
has largely to do with the delivery of the spray aircraft that 
we obtained under the fiscal year 2000 supplemental for Plan 
Colombia. Those aircraft are now starting to arrive. Three of 
the air tractors have arrived this year. We'll get five more.
    Mr. Mica. OK. That was 2000?
    Mr. Simons. That's right, and that procurement took some 
time.
    Mr. Mica. Yes, and that was part of my question is why that 
took so long.
    Mr. Simons. Well, there are various lead times in terms 
of--Mr. Chairman, There are various lead times in terms of 
ordering these aircraft and also in terms of training the 
pilots. We needed to train the pilots for the mountain 
conditions in Colombia.
    Mr. Mica. Well, the contract took how long to do for the 
aircraft?
    Mr. Simons. I believe the aircraft, most of the aircraft 
were available toward the middle of this year, and since then 
we've been engaged in pilot training.
    Mr. Mica. I'm told that's a separate contract. The first 
one for the T-65 aircraft waited so long that the contractor 
went out of business. Is that the case?
    Mr. Simons. Could you repeat the question?
    Mr. Mica. Well, they're talking about several contracts 
here. The T-65 spray aircraft, it took so long for the contract 
to be processed, during that time of the processing the 
contractor went out of business, filed for bankruptcy?
    Mr. Simons. I don't have that information, Mr. Chairman. I 
can get it for you.
    Mr. Mica. Could you get it for us?
    Well, again, I mean, this is like the gang that can't shoot 
straight. Sometimes I wonder if they don't want to shoot in the 
first place. But it's very frustrating from our standpoint. And 
I know that there are impediments placed on you if the Senate 
puts a hold or somebody puts a hold on this money. But you can 
see why we're not getting the job done. It's----
    Mr. Simons. I would remark, Mr. Chairman, that together 
with the Colombian police we will succeed in spraying 
approximately 130,000 hectares of coca this year, in addition 
to 94,000 last year. And we hope to meet our goal of 5,000 
hectares of poppy this year of the 10,000 hectares of poppy 
next year. And these in our view are significant achievements.
    Mr. Mica. OK. And you have the money now, you have the 
resources as far as the aircraft, because you need aircraft. 
You have the resources as far as the chemical. You have the 
resources--you have all the resources to get the job done. Some 
carryover money. You do have some delay now and you probably 
should have a resolution in January on the funding for the 
fiscal year we're in. Does that present a delay factor?
    Mr. Simons. No. We should be able to achieve our objectives 
provided we get full funding in 2003.
    Mr. Mica. OK. And that would be of the funds that you're 
anticipating and that you've seen at least preliminarily 
designated for this fiscal year we're currently in but hasn't 
been finished. Is that correct?
    Mr. Simons. That's correct.
    Mr. Mica. OK. The only caveat that I heard in testimony was 
that it would take another 6 months to train the pilots to have 
all aircraft flying. That's also correct?
    Mr. Simons. That's correct. The new air tractors that we'll 
be getting during the first 6 months of the next year, it will 
take that much time to train the pilots.
    Mr. Mica. One of the--OK. So there are no impediments. 
We're having testimony today that we will have the resources to 
go after both the coca and heroin production. Are there any 
political impediments, either on the Colombian side or the U.S. 
side that you know of that would inhibit moving forward with 
this eradication program?
    Ambassador, you want to just----
    Ambassador Patterson. Could I take this, Mr. Chairman?
    Mr. Mica. Yes. Go ahead.
    Ambassador Patterson. There are no political impediments. 
Actually the new administration in Colombia has been extremely 
aggressive.
    Mr. Mica. We've met with the President. I've met with him 
twice. The Speaker has met with him and we're told that he 
has--well, he's personally committed the will, the resources, 
the policy to support that effort. What about the United States 
side?
    Ambassador Patterson. I wanted to followup on my 
colleague's response if I could. The bottom line is that they 
would spray even more aggressively if we could provide 
additional resources. In other words, we can always use extra 
money. I think we could do more, and perhaps this would be 
something to discuss with you in 2004, if we had additional 
aircraft and additional helicopters. But they have, this 
current administration in Colombia has an unprecedented degree 
of political will to prosecute the drug war.
    Mr. Mica. Well, I'd rather do it in 2003 than in 2004, so 
if you could provide us with a request--I'm asking for a 
request for a supplemental to be provided to the subcommittee 
and what it would take to move forward in this fiscal year to 
complete the job.
    The other thing, too, in Plan Colombia, and, you know, we 
heard--we do hear that this does push the product around. I'm 
also concerned about the spread of cultivation in Ecuador. And 
we did provide funds and assistance in the program in Plan 
Colombia to assist some of these other regional, potential 
future locations as they're spreading the cultivation. Where 
are we on that, Mr. Simons?
    Mr. Simons. Administration request for 2003 for the Andean 
counternarcotics initiative; $731 million is the administration 
request. That's also the House mark and that's the number that 
we are hoping that we can receive full funding for in order to 
obtain our objectives. Of that $731 million, $439 million is 
for Colombia. The remainder is for the other Andean countries, 
specifically to address this issue of spillover that you 
mentioned. Now, the bulk of these funds are for Peru and 
Bolivia, but there's also a substantial amount for Ecuador for 
alternative development as well as for support to Ecuadoran law 
enforcement.
    Mr. Mica. The other thing being--and again, you don't have 
to be a rocket scientist to look at these things--is that 
Mexico is now becoming one of our top producers. And every year 
I get the statistics back I'm shocked by the increases in drug 
production in Mexico, and also percentage of Mexican either 
produced or processed narcotics that is entering the United 
States. And that's confirmed by your signature analysis; is 
that correct, Mr.----
    Mr. Guevara. That's correct.
    Mr. Mica. That brings up a couple of things as to how we 
stop the Mexican production. Have we developed any kind of a 
strategy to deal with this, Mr. Simons?
    Mr. Simons. Certainly we're taking a very close look at 
Mexico. For a number of years our programs in Mexico were quite 
small. But we've recently enjoyed a much improved relationship 
with Mexican law enforcement across the board. I think DEA may 
also want to speak to that. So we have the opportunity now to 
work more closely with our Mexican counterparts, and most 
recently in the fiscal year 2002 supplemental we sought and 
received $25 million in additional funding for Mexico for the 
border security project on the northern border, which could 
also have significant impact on the drug trade.
    So we're certainly taking a look at opportunities to work 
more closely with Mexican law enforcement.
    Mr. Mica. Mr. Guevara, the Mexicans placed a limitation on 
the number of DEA agents in the past. Has that changed?
    Mr. Guevara. Yes, sir. We have made a request of the 
Mexican government to increase our staffing in Mexico for the 
express purposes of assigning additional personnel along the 
northwest border of Mexico. It's my understanding----
    Mr. Mica. Have we--they did put a cap before. Has that cap 
been lifted, or do you just have a request pending?
    Mr. Guevara. I believe that the request has been honored 
and that we have received approval to go forward with opening 
additional DEA offices along the border. The fact----
    Mr. Mica. What about investigations?
    Mr. Guevara. Yes. They would be there for----
    Mr. Mica. Are you aware of any treasury increase in 
activities in Mexico to cooperative efforts to increase our 
financial investigations?
    Mr. Guevara. I could only speak for DEA, and we see an 
enhanced will and ability as well on the part of----
    Mr. Mica. What about the issue of allowing our agents to 
carry weapons and protect themselves?
    Mr. Guevara. That has also been brought up with the Mexican 
State Department, the SRE, and that has not been resolved to my 
knowledge and remains an outstanding issue.
    Mr. Mica. What's INL's recommendation to the President on 
the certification issue for this coming year? Have you held a--
--
    Mr. Simons. Mr. Chairman, I'm afraid I can't get into that 
question here in open session. But we may be able to brief you 
separately on this. The President has not yet made his 
decision.
    Mr. Mica. What was your recommendation?
    Mr. Simons. Until the President makes his decision, Mr. 
Chairman, I would prefer to handle this separately.
    Mr. Mica. All right. And can you provide the subcommittee, 
if you don't want these documents public, with copies of your 
recommendations. Without objection, that request is so ordered 
of your office. And I'd like to try to have that in as soon as 
possible.
    Let me run back to equipment and resources. I got 
sidetracked and didn't ask this question. One of the problems 
we've had is first getting equipment down there, getting 
resources and then having a balanced program that goes after 
the threat as it is developed or recognized or we see its 
effect in the United States. We've lost more aircraft in 
Colombia than I think we lost in the entire Desert Storm 
operation.
    What are we doing to protect the assets that we're sending 
down there? What kind of program is in place? Is INL working on 
that? Is Defense working on that? Can you report to me, Mr. 
Simons, on what we're doing to protect the assets that we have 
down there?
    Mr. Simons. Well, we have an active safety monitoring 
program in place that is supervised by the INL airwing out of 
Patrick Air Force Base and appropriate safety standards----
    Mr. Mica. Is DOD assisting with that? I mean this is a 
defense of--it's not----
    Mr. Simons. I'm not aware if DOD is engaged in this 
activity.
    Mr. Mica. Who is--is there a plan or is there something 
that is in place to deal with, again, good program to protect 
our flying assets?
    Mr. Simons. We have an active air safety program in place. 
We can provide more detail to your staff on this.
    Mr. Mica. I wish you'd do that.
    Mr. Simons. But I would note that it is a very dangerous 
operating environment in Colombia and we have some very 
courageous Colombian police and army officials who put 
themselves at considerable risk in the drug war and the 
Secretary--Secretary Powell when he was down in Colombia last 
week paid tribute to the Colombian police who died in the 
course of duty. And not only do they face substantial risks but 
our contractors who are also out there on the front lines also 
face substantial risk. Within the last year our spray pilots 
took more than 180 hits from ground fire.
    So this is an issue that we take very serious, Mr. 
Chairman.
    Mr. Mica. I'm very much aware of that, but it doesn't sound 
like we have a plan to protect those assets and it doesn't 
sound like INL is coordinating with DOD. And there's a greater 
DOD presence in the activity and we've been protecting--we've 
been protecting the National Police and we should be protecting 
these assets, which are pretty damn expensive and very 
difficult to get down there.
    Let me ask you another question about the assets that we 
have there, helicopters and any other aircraft, either 
participating in spraying or any other activities. Are 100 
percent of those assets in the air and being utilized or are 
some of them--the last time I was there they were being 
cannibalized and they didn't have parts to fly and we had a 
small percentage of the assets to complete these missions 
incapacitated. What's the status of that?
    Mr. Simons. Well, one of our highest goals is to maintain a 
high operational readiness rate for the aircraft that we 
support, and we support a large number of aircraft and 
helicopters in Colombia and we've been pretty successful on 
this. In fact, our contractor--part of their----
    Mr. Mica. Are our assets all----
    Mr. Simons. I will provide the figures, Mr. Chairman.
    Mr. Mica. OK. Can you do that?
    Mr. Simons. But I wanted to indicate to you that this is a 
high priority and it's something that we also measure.
    Mr. Mica. Could you provide me with the background?
    Mr. Simons. I can provide them right now, but I wanted to 
indicate to you that this is a priority.
    Mr. Mica. OK. Well, just submit them to the committee and 
the most updated figure you have.
    Mr. Simons. I have them right now and I would like to 
provide them here in open testimony. The Colombian National 
Police fixed wing fleet, there are 23 aircraft we support. 
Their operational readiness rate has been over 75 percent over 
the last year. The mission readiness rate for the CNP 
helicopter fleet was in excess of 75 percent over the past 
year. And the Colombian Army helos, the 71 Colombian Army helos 
that were provided under Plan Colombia we've maintained 
readiness rates of over 80 percent for those. So we think we've 
actually acquitted ourselves quite well on the issue of 
operational readiness. And as I mentioned, the premium payments 
that we made to our contractor are specifically related to 
their being able to meet the targets on operational readiness. 
So for INL and INL management this is a very high priority.
    Mr. Mica. OK. And on the contractor, do you have any 
percentages of what they're keeping their aircraft up at?
    Mr. Simons. They're keeping their aircraft at an 
operational readiness rate also in excess of 80 percent.
    Mr. Mica. OK. Well, hopefully we're making some progress in 
that--you've been provided with some additional background you 
want to provide? Did you have something else you wanted to 
provide?
    Mr. Simons. Nothing else.
    Mr. Mica. OK. All right. One of the other concerns I have 
is whether--well, there's two things that I mentioned in my 
opening comments that we've studied a long time, or delayed, 
and one is the shoot-down policy as it relates to Peru and 
information providing--I'm told that already in Peru we're 
seeing additional trafficking, additional production, lack of 
ability to respond to again, reinstitution of production and 
trafficking in that area because we haven't been able to make a 
decision or initiate a policy that will help the countries that 
want to cooperate to move forward.
    What's the status on that, Mr. Simons?
    Mr. Simons. Mr. Chairman, this came up during Secretary 
Powell's recent visit to Colombia. Certainly, one of President 
Uribe's top priorities is the renewal of the air bridge denial 
program in Colombia. And Secretary Powell indicated to 
President Uribe that we are moving as quickly as we can to get 
this program back up and running and that we would hope to have 
it operational early in the next year. Currently, we are in the 
process of training pilots and crews, Colombian and Peruvian 
pilots and crews.
    We are working out a revised series of procedures that are 
consistent with the new U.S. law. We plan to deploy a team to 
Colombia, a negotiating team, in the next couple of weeks to 
begin to review these procedures with the Colombian government. 
Subsequent to that, Congress enacted a procedure that requires 
a certification process before we actually bring the decision 
to the President whereby a U.S. team would go down to Colombia 
and certify that the revised procedures are in place. Once all 
that is done, we come up here, we consult with Congress, and 
then the President issues the determination that can make the 
program move forward.
    Mr. Mica. So we could actually have that done by April or 
May if everybody did what they were supposed to, right?
    Mr. Simons. Well, I think the Secretary indicated to 
President Uribe that we would try to get this running early 
next year, and that's what we're trying to hold to.
    Mr. Mica. Well, you have very strong support and I'm going 
to ask Mr. Souder, the chairman of the subcommittee, if he 
continues, or whoever chairs the subcommittee to followup with 
additional hearing or review of that matter. I think it's 
extremely important. Appreciate your keeping the subcommittee 
posted.
    The other matter that I raised was the micro herbicide 
program. What's the status of that Mr. Simons, Ambassador, 
someone?
    Ambassador Patterson. My understanding is that it was--it 
was tested some years back, a couple of years ago and proven to 
be effective in Colombia. We have not pursued it with this 
government and perhaps we should, Congressman.
    Mr. Mica. I think it should be. And, you know, for a 
little--we found that we cannot only spray this stuff, but we 
can also deactivate it for some period of time, saving money 
and lives and then encouraging alternative production. It's not 
like you put this crop out with a little bit of herbicide. I 
think it has great potential. I wish we could pursue that. And 
it would do a lot of damage to the potential of the stuff 
coming back.
    Ambassador Patterson. We are having very good luck, Mr. 
Chairman, with glyfersate, which is a very benign herbicide and 
very widely used.
    Mr. Mica. Well, I have no objections to a less benign 
herbicide. So I think, again, it's something that I'd like to 
see pursued. I know a majority of the subcommittee would, too.
    I understand you have to leave at this time. I have some 
additional questions, but what I'm going to do is actually give 
them to the staff and let them submit them. So without 
objection, we will be providing our witnesses with additional 
questions and we'd like you to respond. Without objection, 
we're going to leave the record open for a period of 2 weeks, 
14 days. So ordered.
    So I will excuse the witnesses at this juncture. Thank you 
again for your cooperation. This isn't meant to be critical of 
you. You all do yeoman's work in this effort. Our job is to 
look at what's happening and then try to see if we can correct 
the problems. Part of the problem of course is the Congress, if 
they put holds on things or you have conflicting signals given. 
But we have adopted a major plan. We need to execute that plan. 
We need to make certain that you get the resources to do that 
and try to move this along. So we appreciate your cooperation. 
And also, if you could get back to the subcommittee we would--
well, we'll not only be grateful, we won't hold you in 
contempt. How's that? Thank you all. Have a nice holiday, and 
look forward to working with you in the new Congress. You're 
excused.
    Mr. Guevara. Thank you, Mr. Mica.
    Mr. Mica. We have one other panelist and I'm going to call 
that panelist forward. If we could go ahead and proceed. We 
have one final panel. This third panel consists only of Mr. 
Adam Isacson. I think the other witness, who was a tentative 
witness, is not here. He is a Senior Associate for the Center 
of International Policy.
    Mr. Isacson, you know this is an investigative oversight 
subcommittee of Congress. If you'd stand and be sworn.
    [Witness sworn.]
    Mr. Mica. The record will reflect that the witness answered 
in the affirmative.
    Welcome, Mr. Isacson, and if you have lengthy documentation 
or statement, you're welcome to submit it to the subcommittee 
and we'll put it in the entire record. If not, recognize you to 
proceed at this time.

    STATEMENT OF ADAM ISACSON, SENIOR ASSOCIATE, CENTER FOR 
                      INTERNATIONAL POLICY

    Mr. Isacson. Thank you, Mr. Chairman. I know it's been a 
long hearing and I'm going to take that 5-minute limit very 
seriously. I just want to begin by congratulating you and the 
whole committee for holding a hearing on Colombia's heroin 
crisis. To my knowledge, this problem hasn't been given such a 
high profile in the House before. We've already seen today that 
this crisis is severe and it's getting worse. But I want to 
caution the committee that simply increasing aerial spraying is 
not likely to reduce the poppy crop. There are several reasons 
for this.
    First, opium poppy is an annual plant. If poppies are 
sprayed, new ones can be planted and harvested within 120 days. 
A spray program is going to have be very nimble in order to 
catch up with that kind of growth cycle.
    Second, poppy cultivation is also kind of hard to find. 
Poppies are grown in high altitude zones along the spine of the 
Andes in very rugged terrain with lots of cloud cover in plots 
that are usually an acre or smaller. Poppy is so illusive that 
since 1999 the State Department hasn't even had a decent 
estimate of how much is being grown in Colombia. If we can't 
even tell how much there is, how are we going to be able to 
eradicate it all?
    But it gets worse. The highest estimate I've heard lately 
is about 15,000 hectares and there's a citation in my written 
testimony of about how much poppy is in Colombia. That sounds 
like a lot of land, but in fact if you were to put all those 
hectares of poppies together, 15,000 hectares, they'd fit into 
a square only 7.6 miles on a side. That's smaller than the 
District of Columbia, and it's scattered around the country, a 
country the size of Texas, New Mexico and Oklahoma put 
together. I'm not convinced that spray planes and helicopters 
are going to be able to keep up with this.
    Our experience trying to spray coca in Colombia is also 
instructive. Since 1996 the United States and Colombian 
Governments have sprayed herbicides over nearly a million acres 
of coca growing zones. Yet we've seen the coca cultivation in 
Colombia in that period triple and the total amount grown in 
South America has stayed just about the same.
    But it gets worse. Colombia has 32 departments or 
provinces. When large scale coca spraying began in 1996, four 
of these departments, maybe five of them had about 1,000 
hectares of coca or more. At the end of last year, 13 
departments of Colombia had that much coca. Despite all of our 
spraying, coca is spreading like a stain across the map of 
Colombia.
    So what do we do then to start reducing drug protection in 
Colombia? The answer is as complicated as the problem itself. 
We have to do a lot of things at once. We have to spend a lot 
of money, and only a fraction of this money should go to 
forcible eradication. We have to recall that in a lot of rural 
Colombia there's simply no way to make a legal living. 
Security, roads, credit access to markets, they're all missing. 
When the spray planes come they take away farmers' illegal way 
of making a living, but they don't replace it with anything.
    For arguments in support of alternative development we 
don't even have to look further than classic counterinsurgency 
doctrine. A basic tenet of counterinsurgency strategy is that 
arming the security forces isn't enough. Large amounts of 
development aid are needed to help the government win the 
people's hearts and minds. But when thousands of families get 
their crops sprayed and then aren't reached by development aid, 
which is what's happening now, their opposition to the 
government hardens. This is counterinsurgency in reverse and 
it's good news for the guerillas.
    A major increase in alternative development has to be at 
the center of our strategy to reduce heroin in Colombia. 
Alternative development should be easier to carry out in poppy 
growing zones than coca growing zones for two reasons. First, 
the guerillas and paramilitaries aren't as much of a threat 
because they're not as involved in the poppy trade. The DEA 
Administrator, Asa Hutchinson, told the Senate at its Narcotic 
Caucus in September, our indication is that the terrorist 
organizations are principally engaged in the cocaine 
trafficking. There are other criminal organizations in Colombia 
that are heavily engaged in heroin. But thus far we are not 
seeing significant terrorist involvement in the heroin side. So 
security shouldn't be as much of a threat.
    Second, there's already an obvious alternative crop. Coffee 
grows best at the same altitudes as heroin poppy. Yes, coffee 
prices are at historic lows and in fact some coffee growers are 
turning to poppies in Colombia. But the U.S. Congress has 
already shown that it wants to help. Last month the House 
passed a bipartisan resolution calling on the United States to 
adopt a global strategy to respond to the coffee crisis with 
coordinated activities in Latin America, Africa and Asia. 
Alternative development in poppy growing areas must be part of 
that strategy.
    Beyond alternative development we must never forget that 
Colombia's status quo, its crisis of drugs and violence 
benefits some very powerful people who are getting away with 
their lawbreaking. We've got to do more to go--we've got to go 
beyond spraying peasants and jailing addicts. We have to do 
more to stop the traffickers who've set up international 
networks. We have to stop the corrupt government officials who 
allow drugs to pass through. We have to stop the bankers who 
are laundering the money. Too many of them are still getting 
away with it.
    Finally, we have to keep increasing funding to treat 
addicts here at home. It's been discussed a lot and it's true. 
Remember the 1994 RAND Corp. study that asked how much would 
the government have to spend to decrease cocaine consumption in 
the United States by 1 percent? RAND found that $1 spent on 
treatment is as effective as $23 spent on crop eradication.
    Just to sum up, we all agree that Colombia's heroin crisis 
has reached frightening proportions. The way out though is 
going to be complicated, expensive, and sometimes frustrating. 
I ask the committee not to place all of its eggs in the basket 
of spraying and aid to Colombia's security forces. We're going 
to need a much fuller mix of strategies if we're going to solve 
this.
    Thank you very much. I look forward to your questions.
    Mr. Mica. Thank you, Mr. Isacson. Just a couple of quick 
questions.
    [The prepared statement of Mr. Isacson follows:]

    [GRAPHIC] [TIFF OMITTED] T4606.076
    
    [GRAPHIC] [TIFF OMITTED] T4606.077
    
    [GRAPHIC] [TIFF OMITTED] T4606.078
    
    [GRAPHIC] [TIFF OMITTED] T4606.079
    
    [GRAPHIC] [TIFF OMITTED] T4606.080
    
    [GRAPHIC] [TIFF OMITTED] T4606.081
    
    [GRAPHIC] [TIFF OMITTED] T4606.082
    
    [GRAPHIC] [TIFF OMITTED] T4606.083
    
    [GRAPHIC] [TIFF OMITTED] T4606.084
    
    Mr. Isacson. Sure.
    Mr. Mica. One, I think you pointed out one of the problems 
of just spraying for eradication of a poppy crop or coca crop. 
That was why I asked the question of Ambassador Patterson and 
the other witnesses about the micro herbicide. They do provide 
a long term eradication. Are you familiar with their use?
    Mr. Isacson. I'm familiar with their use and I haven't seen 
any tests showing----
    Mr. Mica. We have tests that show that it will eradicate 
some of these crops for substantial periods of time. So I 
guess, based on your testimony, you would be supportive of 
something that would take the crop out for a long time.
    Mr. Isacson. Well, micro herbicides, to be honest, make me 
nervous because we don't know what their impact will be on this 
Amazon ecosystem. We're talking about the second largest 
biodiversity of any country in the world.
    Mr. Mica. But you also said the area that would be--that's 
in production is less than the size of the District of 
Columbia.
    Mr. Isacson. Scattered around an area more or less the size 
of California if you look at the Andean ridge.
    Mr. Mica. So it wouldn't do much damage since it's spread 
over such a large area. And if the evidence showed that micro 
herbicide only affected that individual plant you're trying to 
eradicate, you'd certainly be supportive, wouldn't you?
    Mr. Isacson. Hmm, I would be supportive of something that 
got rid of coca, but also strengthened the Colombian government 
and provided an alternative to the people who had nothing left 
to do.
    Mr. Mica. If you were devising Plan Colombia to deal with--
first of all, you said one of the things we had to do was 
provide Colombia with security. That was one of the problems 
that we have. If you have security you can probably deal with 
some of this production and illegal trafficking which finances 
the terrorism in pretty good order. So we--if we put an element 
to deal with security in Plan Colombia, we put an element in 
that deals with crop eradication, and then finally we also put 
an element in to deal with alternative development, which you 
strongly advocated in your testimony, are you--you're aware 
that at least a third of the funds that were in Plan Colombia 
were dedicated toward either economic development or crop 
alternative programs?
    Mr. Isacson. Yes, I am and I agree on security. I wish that 
our assistance did more to protect actual Colombians and 
increase the strength of the state. What we did mainly was 
secure the fumigation program and now we're proposing to secure 
a pipeline. That doesn't really affect the lives of most 
Colombians.
    Mr. Mica. Well, I think if you secure the terrorist threat 
you do provide security for the land and the ability to also 
conduct business and make a living. So we have about a--well, 
we have in excess of over a third of the funds for these 
assistance programs. So I think it's a pretty good balance. I 
would have to say that I've been personally disappointed that--
not only in the eradication and security areas, but also in the 
economic development----
    Mr. Isacson. I share that disappointment.
    Mr. Mica [continuing]. And alternative development 
programs. There have also been unnecessary delays, bureaucratic 
bungling and lack of progress. So we appreciate--I guess that 
would be your same observation?
    Mr. Isacson. That would be my observation, too. I'm worried 
that coverage is nowhere near where it should be.
    Mr. Mica. Right. And it does take all of those elements to 
make this program successful. Well, I want to thank you. I 
tried to stall a bit to see if any of the minority Members 
would return since you are a witness from--requested from their 
side. But we do appreciate your participation, your patience in 
waiting until the end, and also for your recommendations to the 
panel on a very important subject.
    So we'll excuse you at this time, and we'll also see if 
they have any questions from the minority side that they'd like 
to submit. And we've left the record open for that purpose. So 
thank you and you're excused, Mr. Isacson.
    Mr. Isacson. Thank you for your invitation.
    Mr. Mica. And I did have one article that I wanted to 
submit to the record by Mr. Burton and Mr. Gilman. It's dated 
Thursday, October 29th, commentary on heroin awakening. Without 
objection, this will be made part of the record today.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4606.085
    
    Mr. Mica. There being no further business before the 
committee today, and this is the full committee meeting isn't 
it? Excuse me. I'm usually chairing the subcommittee, but this 
is historic in that we're addressing a very serious issue 
facing the United States. It's also historic in that it's the 
last hearing, I believe, of the Government Reform Committee in 
the 107th Congress.
    I want to particularly thank the staff on both sides of the 
aisle for their cooperation, the Members for working over the 
past year, our chairman for his leadership and our ranking 
member for his leadership in one of the most important 
committees in the House of Representatives that is charged with 
investigation and oversight of all of the activities of our 
Federal Government.
    So there being no further business, this hearing and this 
committee for the 107th Congress is adjourned.
    [Note.--The report entitled, ``Fiscal Year 2002 Annual 
Report, July 1, 2001-June 30, 2002, Maine Drug Enforcement 
Agency,'' may be found in committee files.]
    [Whereupon, at 2:40 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Bob Barr, Hon. Elijah E. 
Cummings, and additional information submitted for the hearing 
record follow:]

[GRAPHIC] [TIFF OMITTED] T4606.086

[GRAPHIC] [TIFF OMITTED] T4606.087

[GRAPHIC] [TIFF OMITTED] T4606.088

[GRAPHIC] [TIFF OMITTED] T4606.089

[GRAPHIC] [TIFF OMITTED] T4606.090

[GRAPHIC] [TIFF OMITTED] T4606.091

[GRAPHIC] [TIFF OMITTED] T4606.092

[GRAPHIC] [TIFF OMITTED] T4606.093

[GRAPHIC] [TIFF OMITTED] T4606.094

[GRAPHIC] [TIFF OMITTED] T4606.095

[GRAPHIC] [TIFF OMITTED] T4606.096

[GRAPHIC] [TIFF OMITTED] T4606.097

[GRAPHIC] [TIFF OMITTED] T4606.098

[GRAPHIC] [TIFF OMITTED] T4606.099

[GRAPHIC] [TIFF OMITTED] T4606.100

[GRAPHIC] [TIFF OMITTED] T4606.101

[GRAPHIC] [TIFF OMITTED] T4606.102

[GRAPHIC] [TIFF OMITTED] T4606.103

[GRAPHIC] [TIFF OMITTED] T4606.104

[GRAPHIC] [TIFF OMITTED] T4606.105

[GRAPHIC] [TIFF OMITTED] T4606.106

[GRAPHIC] [TIFF OMITTED] T4606.107

[GRAPHIC] [TIFF OMITTED] T4606.108

[GRAPHIC] [TIFF OMITTED] T4606.109

[GRAPHIC] [TIFF OMITTED] T4606.110

[GRAPHIC] [TIFF OMITTED] T4606.111

[GRAPHIC] [TIFF OMITTED] T4606.112

[GRAPHIC] [TIFF OMITTED] T4606.113

[GRAPHIC] [TIFF OMITTED] T4606.114

[GRAPHIC] [TIFF OMITTED] T4606.115

[GRAPHIC] [TIFF OMITTED] T4606.116

[GRAPHIC] [TIFF OMITTED] T4606.117

[GRAPHIC] [TIFF OMITTED] T4606.118

[GRAPHIC] [TIFF OMITTED] T4606.119

[GRAPHIC] [TIFF OMITTED] T4606.120

[GRAPHIC] [TIFF OMITTED] T4606.121

[GRAPHIC] [TIFF OMITTED] T4606.122

[GRAPHIC] [TIFF OMITTED] T4606.123

[GRAPHIC] [TIFF OMITTED] T4606.124

[GRAPHIC] [TIFF OMITTED] T4606.125

[GRAPHIC] [TIFF OMITTED] T4606.126

[GRAPHIC] [TIFF OMITTED] T4606.127

[GRAPHIC] [TIFF OMITTED] T4606.128

[GRAPHIC] [TIFF OMITTED] T4606.129

[GRAPHIC] [TIFF OMITTED] T4606.130

[GRAPHIC] [TIFF OMITTED] T4606.131

[GRAPHIC] [TIFF OMITTED] T4606.132

[GRAPHIC] [TIFF OMITTED] T4606.133

[GRAPHIC] [TIFF OMITTED] T4606.134

[GRAPHIC] [TIFF OMITTED] T4606.135

[GRAPHIC] [TIFF OMITTED] T4606.136

[GRAPHIC] [TIFF OMITTED] T4606.137

[GRAPHIC] [TIFF OMITTED] T4606.138

[GRAPHIC] [TIFF OMITTED] T4606.139

[GRAPHIC] [TIFF OMITTED] T4606.140

[GRAPHIC] [TIFF OMITTED] T4606.141

[GRAPHIC] [TIFF OMITTED] T4606.142

[GRAPHIC] [TIFF OMITTED] T4606.143

[GRAPHIC] [TIFF OMITTED] T4606.144

[GRAPHIC] [TIFF OMITTED] T4606.145

[GRAPHIC] [TIFF OMITTED] T4606.146

[GRAPHIC] [TIFF OMITTED] T4606.147

[GRAPHIC] [TIFF OMITTED] T4606.148


</pre></body></html>
